   SPECIAL REPORTS RELATING TO THE
FEDERAL EMPLOYEES' COMPENSATION ACT
         SPECIAL BENEFIT FUND

FOR THE YEAR ENDED SEPTEMBER 30, 2000




                                     U.S. Department of Labor
                                   Office of Inspector General
                             Report Number: 22-01-003-04-431
                               Date Issued: DEC 15, 2000
                                           Carmichael
                                        Brasher Tuvell
C e r t i f i e d                P u b l i c               A c c o u n t a n t s                   & Company




 This audit was performed by Carmichael, Brasher, Tuvell & Company, Certified Public Accountants, under
 contract to the Inspector General, and, by acceptance, it becomes a report of the Office of Inspector General.



                                                                               _______________________________
                                                                                 Assistant Inspector General for Audit
                                                           Carmichael
                                                        Brasher Tuvell
C e r t i f i e d   P u b l i c   A c c o u n t a n t   s & Company
Table of Contents

Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

I.         A.         Independent Auditors' Report on the Schedule of Actuarial Liability,
                            Net Intra-Governmental Accounts Receivable and Benefit Expense . . . . . . 1

           B.         Schedule of Actuarial Liability, Net Intra-Governmental Accounts
                            Receivable and Benefit Expense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

II.        A.         Independent Accountants' Report on Applying Agreed-Upon Procedures . . . . . . . . 9

           B.         Schedules

                      1.         Schedule of Actuarial Liability by Agency . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                      2.         Schedule of Net Intra-Governmental Accounts Receivable by Agency . . . 13

                      3.         Schedule of Benefit Expense by Agency . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

           C.         Agreed-Upon Procedures and Results
                      Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   17
                      Actuarial Liability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     19
                      Net Intra-Governmental Accounts Receivable . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            26
                      Benefit Expense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       28

III.       A.         Independent Service Auditors' Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

           B.         Division of Federal Employees' Compensation’s
                             Policies and Procedures
                      Overview of Services Provided . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 33
                      Overview of Control Environment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   37
                      Overview of Transaction Processing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    40
                      Overview of Computer Information Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            46
                      Control Objectives and Related Policies and Procedures . . . . . . . . . . . . . . . . . . . . .                                49
                      User Control Considerations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               49

           C.         Information Provided by the Service Auditor
                      Tests of Control Environment Elements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       51
                      Sampling Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            51
                      Control Objectives, Related Policies and Procedures,
                             and Tests of Operating Effectiveness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         54
                             General Computer Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    55
                             Transaction Processing Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      66
[This page intentionally left blank.]
                                      ACRONYMS




ACPS      Automated Compensation Payment System
ADP       Automatic Data Processing
AID       Agency for International Development
BPS       Bill Payment System
BLS       Bureau of Labor Statistics
CBS       Chargeback System
CDSI      Computer Data System, Inc.
CE        Claims Examiner
CFO       Chief Financial Officer
CFR       Code of Federal Regulations
CMF       Case Management File System
COLA      Cost of Living Allowance
COP       Continuation of Pay
CPI       Consumer Price Index
CPI-U     Consumer Price Index for all Urban Consumers
CPI-Med   Consumer Price Index for Medical
DITMS     Division of Information Technology Management and Services
DCE       Designated Claims Examiner
DD        District Director
DFEC      Division of Federal Employees' Compensation
DMA       District Medical Advisor
DMD       District Medical Director
DO        District Office
DOL       United States Department of Labor
DOLAR$    Department of Labor Accounting and Related Systems
DPPS      Division of Planning, Policy and Standards
DRP       Disaster Recovery Plan
EDP       Electronic Data Processing
EPA       Environmental Protection Agency
ESA       Employment Standards Administration
FCS       Fund Control System
FECA      Federal Employees' Compensation Act
FEMA      Federal Emergency Management Agency
FISCAM    Federal Information System Controls Application Manual
FMFIA              Federal Managers' Financial Integrity Act
GSA       General Services Administration




                                             i
                                       ACRONYMS


HBI       Health Benefit Insurance
HHS       U.S. Department of Health and Human Services
HUD       U.S. Department of Housing and Urban Development
IBNR      Incurred But Not Reported
IS        Information Systems
LBP       Liability Benefits Paid (ratio)
LWEC      Loss of Wage Earning Capacity
NASA      National Aeronautics and Space Administration
NRC       Nuclear Regulatory Commission
NSF       National Science Foundation
OIG       Office of Inspector General
OLI       Optional Life Insurance
OMAP      Office of Management and Planning
OMB       Office of Management and Budget
OPAC      On-line Payment and Collection System
OPM       Office of Personnel Management
OWCP      Office of Workers' Compensation Programs
RS        Rehabilitation Specialist
SAS 70    Statement on Auditing Standards, Number 70
SBA       Small Business Administration
SCE       Senior Claims Examiner
SDLC      System Development Life Cycle
SFFAS     Statement of Federal Financial Accounting Standards
SOL       Solicitor of Labor
SSA       Social Security Administration
SunGard   SunGard Computer Services, Inc.
TTD       Temporary Total Disability
U.S.C.    United States Code
USPS      United States Postal Service
VA        U.S. Department of Veterans Affairs




                                              ii
                                                                                           Carmichael
                                                                                        Brasher Tuvell
C e r t i f i e d              P u b l i c            A c c o u n t a n t              s & Company
                                                                        678-443-9200
                                                              Facsimile 678-443-9700
                                                                    www.cbtcpa.com




                                     SECTION IA
                        INDEPENDENT AUDITORS' REPORT ON THE
                          SCHEDULE OF ACTUARIAL LIABILITY,
                   NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                                AND BENEFIT EXPENSE

Bernard E. Anderson, Assistant Secretary
Employment Standards Administration, U.S. Department of Labor,
General Accounting Office, Office of Management and Budget and Other Specified User
Agencies:

We have audited the accompanying Schedule of Actuarial Liability, Net Intra-Governmental Accounts
Receivable and Benefit Expense (the Schedule) of the Federal Employees' Compensation Act Special Benefit
Fund as of and for the year ended September 30, 2000. This schedule is the responsibility of the U.S.
Department of Labor's management. Our responsibility is to express an opinion on this schedule based on our
audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America, Government Auditing Standards, issued by the Comptroller General of the United States, and the
applicable provisions of OMB Bulletin 01-02, Audit Requirements for Federal Financial Statements. Those
standards require that we plan and perform the audit to obtain reasonable assurance about whether the Schedule
of Actuarial Liability, Net Intra-Governmental Accounts Receivable and Benefit Expense is free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in
the Schedule of Actuarial Liability, Net Intra-Governmental Accounts Receivable and Benefit Expense. An audit
also includes assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall schedule presentation. We believe that our audit provides a reasonable basis for our
opinion.

In our opinion, the Schedule of Actuarial Liability, Net Intra-Governmental Accounts Receivable and Benefit
Expense referred to above presents fairly, in all material respects, the actuarial liability, net intra-governmental
accounts receivable and benefit expense of the Federal Employees' Compensation Act Special Benefit Fund as
of and for the year ended September 30, 2000, in conformity with accounting principles generally accepted in
the United States of America.



1647     Mount       Vernon       Road,      Dunwoody         Exchange,        Atlanta,      Georgia       30338
                                                   1
This report is intended solely for the information and use of the U.S. Department of Labor, General Accounting
Office, Office of Management and Budget and those Federal agencies listed in Section IIB of this report and is
not intended to be and should not be used by anyone other than these specified parties.




                                         December 15, 2000




                                                      2
                               SECTION IB
                      U.S. DEPARTMENT OF LABOR
              EMPLOYMENT STANDARDS ADMINISTRATION
                FEDERAL EMPLOYEES' COMPENSATION ACT
                         SPECIAL BENEFIT FUND
                   SCHEDULE OF ACTUARIAL LIABILITY,
           NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                         AND BENEFIT EXPENSE
           AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2000

                                                                (Dollars in
                                                               Thousands)


Actuarial Liability                                          $ 21,787,650


Net Intra-governmental Accounts Receivable                   $ 3,270,418


Benefit Expense                                              $ 5,787,687




                                             3
           See independent auditors' report.
The accompanying notes are an integral part of this schedule.




                             4
              NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
             NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                           AND BENEFIT EXPENSE
                            SEPTEMBER 30, 2000

1.   SIGNIFICANT ACCOUNTING POLICIES

     a.   Basis of Presentation

          This schedule has been prepared to report the actuarial liability, net intra-governmental accounts
          receivable and benefit expense of the Federal Employees' Compensation Act (FECA) Special
          Benefit Fund, as required by the CFO Act of 1990. The Special Benefit Fund was established
          by the Federal Employees' Compensation Act (FECA), to provide for the financial needs
          resulting from compensation and medical benefits authorized under the Act. The U.S.
          Department of Labor (DOL), Employment Standards Administration (ESA) is charged with the
          responsibility of operating the Special Benefit Fund under the provisions of the Act. The
          schedule has been prepared from the accounting records of the Special Benefit Fund.

          The actuarial liability, net intra-governmental accounts receivable and benefit expense of the
          Special Benefit Fund have been considered specified accounts for the purpose of this special
          report and have been reported thereon. ESA is responsible for providing annual data to the
          CFO Act and other specified agencies. FECA's annual data is defined as the actuarial liability
          of the Special Benefit Fund. This annual data is necessary for the CFO Act and other specified
          agencies to support and prepare their respective financial statements.

          The actuarial liability for future workers' compensation benefits is an accrued estimate as of
          September 30, 2000. The net intra-governmental accounts receivable is the amount due from
          Federal agencies for benefit payments paid to employees of the employing agency. The net intra-
          governmental accounts receivable includes amounts which were billed to the employing agencies
          through June 30, 2000, but not paid as of September 30, 2000, including prior years, if
          applicable, plus the accrued receivable for benefit payments not yet billed for the period July 1,
          2000 through September 30, 2000, less credits due from the public.

          Benefit payments are intended to provide income and medical cost protection to covered
          Federal civilian employees injured on the job, employees who have incurred a work-related
          occupational disease and beneficiaries of employees whose death is attributable to job-related
          injury or occupational disease. The actuarial liability is computed from the benefits paid history.
          The benefits paid, inflation and interest rate assumptions, and other economic factors are applied
          to the actuarial model which calculates the liability estimate.




                                                  5
         NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
        NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                      AND BENEFIT EXPENSE
                       SEPTEMBER 30, 2000

b.   Basis of Accounting

     The accounting and reporting policies of the Federal Employees' Compensation Act Special
     Benefit Fund relating to the Schedule conforms to accounting principles generally accepted in the
     United States.

     The actuarial liability for future workers' compensation benefits is an accrued estimate as of
     September 30, 2000. Net intra-governmental accounts receivable is the total of the amounts
     billed to Federal agencies which had not yet been paid plus the accrued receivable for benefit
     payments not yet billed for the period July 1, 2000 through September 30, 2000, less credits due
     from the public. Benefit expense consists of payments made for the period from
     October 1, 1999 to September 30, 2000, plus the net change in the actuarial liability for the
     year.

     Statement of Federal Financial Accounting Standards (SFFAS) Number 5, Section 138,
     Accounting for Liabilities of the Federal Government, requires that a contingent liability be
     recognized when three conditions are met. First, a past event or exchange transaction has
     occurred. Second, a future outflow or other sacrifice of resources is probable. Finally, the
     future outflow or sacrifice of resources is measurable. Prior to fiscal year 2000, claims which
     had been incurred but not reported (IBNR), were not included in the computation of the actuarial
     liability. This presentation was in accordance with Appendix B - Liability Recognition and
     Measurement Matrix of SFFAS 5. For fiscal year 2000 and forward, however, IBNR is
     included in the actuarial liability. The change to the inclusion of IBNR was based upon the
     judgment that the historical pattern of FECA claims is sufficiently stable to make a reasonable
     estimation of IBNR. The ability to measure IBNR satisfies the third SFFAS criterion. FASAB
     has concurred with including IBNR in the computation of the actuarial liability. Therefore, the
     actuarial liability represents the estimated present value of future compensation and medical
     payments based upon approved claims, plus a component for incurred but not reported claims.




                                            6
                 NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
                NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                              AND BENEFIT EXPENSE
                               SEPTEMBER 30, 2000


             Other changes to the model used to calculate the actuarial liability include:

             1. Agency payment data beyond the past 11 years is backfilled to the injury year as
             extrapolated from the last 11 years of payment history. The backfilling of data is intended to
             establish more credible cumulative benefit data for older claims and stabilize the payment history
             of those agencies for whom insufficient data points existed to produce stable projections;

             2. Agencies are grouped to develop the pattern to backfill data. An agency's estimated liability
             may be affected by the historical benefit payments of another agency within its grouping;

             3. The estimated future liability is projected until the loss development factor calculates to zero
             as opposed to 37 years as was formerly used; and

             4. The new model develops an estimate of total anticipated payments by injury year, subtracts
             the amount already paid, and allocates the balance to future years premised upon decay rates
             established by grouped historical payments. The prior year’s models projected future payments
             by multiplying the agency's current year payments by the agency's decay rates.


2.   ACTUARIAL LIABILITY (FUTURE WORKERS' COMPENSATION BENEFITS)

     The Special Benefit Fund was established under the authority of the Federal Employees' Compensation
     Act to provide income and medical cost protection to covered Federal civilian employees injured on the
     job, employees who have incurred a work-related occupational disease and beneficiaries of employees
     whose death is attributable to a job-related injury or occupational disease. The fund is reimbursed by
     other Federal agencies for the FECA benefit payments made on behalf of their workers.

     The actuarial liability for future workers’ compensation reported on the schedule includes the expected
     liability for death, disability, medical and miscellaneous costs for approved cases. The liability is
     determined using a method that utilizes historical benefit payment patterns related to a specific incurred
     period to predict the ultimate payments related to that period. Consistent with past practice, these
     projected annual benefit payments have been discounted to present value using the Office of
     Management and Budget's (OMB) economic assumptions for 10-year Treasury notes and bonds. The
     interest rate assumptions utilized for discounting were as follows:

                                      6.275% in year 1,
                                      6.300% in year 2, and thereafter.


                                                     7
                 NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
                NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                              AND BENEFIT EXPENSE
                               SEPTEMBER 30, 2000


     To provide more specifically for the effects of inflation on the liability for future workers' compensation
     benefits, wage inflation factors (cost of living allowance or COLA) and medical inflation factors
     (consumer price index-medical or CPI-Med) are applied to the calculation of projected future benefits.
     These factors are also used to adjust the historical payments to current year constant dollars. A
     discounting formula was previously used which recognized the timing of compensation payments as 13
     payments per year. The liability is now determined assuming an annual payment at mid-year.

     The compensation COLA and the CPI-Med used in the model's calculation of estimates were as follows:

             FY          COLA          CPI-Med           FY        COLA          CPI-Med
             1989        4.52%         6.98%             1997      2.85%         3.11%
             1990        4.32%         8.40%             1998      2.67%         2.76%
             1991        5.05%         9.36%             1999      1.53%         3.51%
             1992        5.06%         7.96%             2000      1.97%         3.69%
             1993        2.82%         6.61%             2001      2.83%         4.24%
             1994        2.74%         5.27%             2002      2.90%         4.10%
             1995        2.56%         4.72%             2003      2.53%         4.16%
             1996        2.60%         4.00%             2004+     2.60%         4.16%

     The medical inflation rates presented represent an average of published quarterly rates covering the
     benefit payment fiscal year. The compensation factors presented are the blended rates used by the
     model rather than the published March 1 COLA factor from which the blended rates are derived.

3.   NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

     Net intra-governmental accounts receivable is the total of the amounts billed to Federal agencies which
     had not yet been paid as of September 30, 2000, plus the accrued receivable for benefit payments not
     yet billed for the period July 1, 2000 through September 30, 2000, less applicable credits. The Special
     Benefit Fund also receives an appropriation for the special cases where employing agencies are not
     charged for compensation or medical bill payments. Other agencies recognize the amount of the current
     chargeback billing as an expense, some agencies receive, as part of their annual appropriation, funding
     for FECA benefits.

     In addition, certain corporations and instrumentalities are assessed under the Federal Employees'
     Compensation Act for a fair share of the costs of administering disability claims filed by their employees.
     The fair share costs are included in the net intra-governmental accounts receivable.



                                                     8
                 NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
                NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                              AND BENEFIT EXPENSE
                               SEPTEMBER 30, 2000

4.   BENEFIT EXPENSE

     Benefit expense consists of benefit payments for compensation for lost wages, schedule awards, death
     benefits and medical benefits paid under FECA for the period October 1, 1999 through September 30,
     2000, plus the net change in the actuarial liability for the year. The amount paid for compensation for lost
     wages, schedule awards, death benefits and medical benefits totaled $2,080,649,000. The net change
     in the actuarial liability for the year was $3,707,038,000. The total amount of benefit expense for the
     fiscal year was $5,787,687,000. The total amount of benefit expense includes amounts pertaining to the
     revision of the model, reflecting treatment as a change in accounting estimate.




                                                      9
                                                                                          Carmichael
                                                                                       Brasher Tuvell
C e r t i f i e d              P u b l i c            A c c o u n t a n t             s & Company
                                                                        678-443-9200
                                                              Facsimile 678-443-9700
                                                                    www.cbtcpa.com

                                        SECTION IIA
                            INDEPENDENT ACCOUNTANTS' REPORT
                           ON APPLYING AGREED-UPON PROCEDURES


Bernard E. Anderson, Assistant Secretary
Employment Standards Administration, U.S. Department of Labor,
General Accounting Office, Office of Management and Budget and Other Specified User
Agencies:

We have performed the procedures described in the Agreed-Upon Procedures and Results, Section IIC, which
were agreed to by the U.S. Department of Labor, General Accounting Office, Office of Management and
Budget, the CFO Act agencies and other specified agencies listed in the Schedules of Actuarial Liability by
Agency, Net Intra-Governmental Accounts Receivable by Agency and Benefit Expense by Agency, Section IIB-
1, 2 and 3 (the specified users) of this special report, solely to assist you and such agencies with respect to the
accompanying Schedules of Actuarial Liability by Agency, Net Intra-Governmental Accounts Receivable by
Agency and Benefit Expense by Agency (Section IIB 1, 2 and 3, respectively) of the Federal Employees'
Compensation Act Special Benefit Fund as of and for the year ended September 30, 2000.

The Schedules (Section IIB 1, 2 and 3) were provided by the Department of Labor. The Schedule of Actuarial
Liability by Agency at September 30, 2000, represents the present value of the estimated future benefits to be
paid pursuant to the Federal Employees' Compensation Act. The Schedule of Net Intra-Governmental Accounts
Receivable by Agency is the total of the amounts billed to Federal agencies through June 30, 2000 which had
not yet been paid as of September 30, 2000 plus the accrued receivable for benefit payments not yet billed for
the period July 1, 2000 through September 30, 2000. The Schedule of Benefit Expense by Agency is the benefit
payments expended for the fiscal year ended September 30, 2000, plus the net change in the actuarial liability
for the year.

This engagement to apply agreed-upon procedures was performed in accordance with standards established by
the American Institute of Certified Public Accountants and Government Auditing Standards, issued by the
Comptroller General of the United States.

An actuary was engaged to perform certain procedures relating to the actuarial liability as described in Section
IIC.

We express no opinion on the Federal Employees' Compensation Act Special Benefit Fund's internal controls
over financial reporting or any part thereof.


                                                        10
The Schedules of Actuarial Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency and
Benefit Expense by Agency were prepared in accordance with accounting principles generally accepted in the
United States of America.

The sufficiency of the procedures is solely the responsibility of the specified users of this report. Consequently,
we make no representation regarding the sufficiency of the procedures described in Section IIC either for the
purpose for which this report has been requested or for any other purpose. Our agreed-upon procedures and
results are presented in Section IIC of this report.

These agreed-upon procedures do not constitute an audit of the Schedules of Actuarial Liability by Agency, Net
Intra-Governmental Accounts Receivable by Agency and Benefit Expense by Agency or on any part thereof,
the objective of which is the expression of an opinion or limited assurance on the Schedules or a part thereof.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other matters might
have come to our attention that would have been reported to you.

This report should not be used by those who have not agreed to the procedures and taken responsibility for the
sufficiency of the procedures for their purposes thereof. This report is intended solely for the information and use
of the U.S. Department of Labor, General Accounting Office, Office of Management and Budget and those
Federal agencies (listed in Section IIB) of this report and is not intended to be and should not be used by anyone
other than these specified parties.




December 15, 2000




                                                        11
                                     SECTION IIB-1
                             U.S. DEPARTMENT OF LABOR
                      EMPLOYMENT STANDARDS ADMINISTRATION
                       FEDERAL EMPLOYEES' COMPENSATION ACT
                                SPECIAL BENEFIT FUND
                     SCHEDULE OF ACTUARIAL LIABILITY BY AGENCY
                              AS OF SEPTEMBER 30, 2000


                                                                 Actuarial
                                                                 Liability
AGENCY                                                      (Dollars in thousands)
Agency for International Development (AID)                                 $29,819

Environmental Protection Agency (EPA)                                        33,673

Federal Emergency Management Agency (FEMA)                                   21,996

General Services Administration (GSA)                                      178,996

National Aeronautics and Space Administration (NASA)                         61,581

National Science Foundation (NSF)                                             1,767

Nuclear Regulatory Commission (NRC)                                           8,230
Office of Personnel Management (OPM)                                         12,736

United States Postal Service (USPS)                                      6,298,430

Small Business Administration (SBA)                                          30,746

Social Security Administration (SSA)                                       239,414

Tennessee Valley Authority                                                 586,388

U. S. Department of Agriculture                                            768,532
U. S. Department of the Air Force                                        1,337,201

U. S. Department of the Army                                             1,731,678

U. S. Department of Commerce                                               155,647

U. S. Department of Defense - other                                        876,106

U. S. Department of Education                                                18,820

U. S. Department of Energy                                                   84,485
U. S. Department of Health and Human Services                              263,893

U. S. Department of Housing and Urban Development                            74,653



                                                 12
                                                SECTION IIB-1
                                        U.S. DEPARTMENT OF LABOR
                                 EMPLOYMENT STANDARDS ADMINISTRATION
                                  FEDERAL EMPLOYEES' COMPENSATION ACT
                                           SPECIAL BENEFIT FUND
                                SCHEDULE OF ACTUARIAL LIABILITY BY AGENCY
                                         AS OF SEPTEMBER 30, 2000


                                                                                                                 Actuarial
                                                                                                                 Liability
    AGENCY                                                                                                  (Dollars in thousands)
    U. S. Department of the Interior                                                                                       584,830

    U. S. Department of Justice                                                                                           $985,513

    U. S. Department of Labor                                                                                              221,280

    U. S. Department of the Navy                                                                                         2,665,434

    U. S. Department of State                                                                                                49,916

    U. S. Department of Transportation                                                                                   1,086,745

    U. S. Department of the Treasury                                                                                       915,638
    U. S. Department of Veterans Affairs (VA)                                                                            1,585,031

    Other agencies 1                                                                                                       878,472

    Total - all agencies (Memo Only)                                                                                   $21,787,650




1
    Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.

                                                                         13
                                                    SECTION IIB-2
                                            U.S. DEPARTMENT OF LABOR
                                     EMPLOYMENT STANDARDS ADMINISTRATION
                                      FEDERAL EMPLOYEES' COMPENSATION ACT
                                               SPECIAL BENEFIT FUND
                                      SCHEDULE OF NET INTRA-GOVERNMENTAL
                                         ACCOUNTS RECEIVABLE BY AGENCY
                                             AS OF SEPTEMBER 30, 2000

                                                                                                              Amounts                       Net Intra-
                                                                                      Amounts                Expended        Credits      Governmental
                                                                                     Billed Not               Not Yet       Due from        Accounts
                                                                                    Yet Paid(1)              Billed (2)     Public (3)    Receivable(4)
                                                                                     (Dollars in             (Dollars in    (Dollars in     (Dollars in
  AGENCY                                                                            thousands)              thousands)     thousands)      thousands)

  Agency for International Development                                                      $6,724                 $918          ($26)            $7,616

  Environmental Protection Agency                                                            6,435                 1,008           (25)            7,418

  Federal Emergency Management Agency                                                        4,039                  706            (17)            4,728

  General Services Administration                                                           32,274                 4,853         (120)            37,007

  National Aeronautics and Space Administration                                             12,606                 1,836           (47)           14,395

  National Science Foundation                                                                   301                  35             (1)             335

  Nuclear Regulatory Commission                                                              1,290                  236             (5)            1,521

  Office of Personnel Management                                                             1,989                  306             (8)            2,287

  United States Postal Service                                                              58,272              200,294         (4,884)          253,682

  Small Business Administration                                                              4,442                  783            (16)            5,209

  Social Security Administration                                                            38,299                 5,484         (146)            43,637

  Tennessee Valley Authority                                                                64,102               16,145          (411)            79,836

  U. S. Department of Agriculture                                                         124,601                18,596          (475)           142,722

  U. S. Department of the Air Force                                                       251,483                38,149          (939)           288,693

  U. S. Department of the Army                                                            292,024                38,664          (978)           329,710

  U. S. Department of Commerce                                                              22,863                 5,846           (97)           28,612

  U. S. Department of Defense - other                                                     157,220                22,645          (580)           179,285

  U. S. Department of Education                                                              3,903                  502            (11)            4,394

  U. S. Department of Energy                                                                14,028                 2,381           (61)           16,348


1 Amounts billed through June 30, 2000 (including prior years) but not yet paid as of September 30, 2000.
2 Amounts expended but not yet billed for the period July 1, 2000 through September 30, 2000.
3 Allocation of credits due from public through September 30, 2000.
4 Total Amount due to the fund for each agency as of September 30, 2000.


                                                                                  14
                                                    SECTION IIB-2
                                            U.S. DEPARTMENT OF LABOR
                                     EMPLOYMENT STANDARDS ADMINISTRATION
                                      FEDERAL EMPLOYEES' COMPENSATION ACT
                                               SPECIAL BENEFIT FUND
                                      SCHEDULE OF NET INTRA-GOVERNMENTAL
                                         ACCOUNTS RECEIVABLE BY AGENCY
                                             AS OF SEPTEMBER 30, 2000

                                                                                                              Amounts                       Net Intra-
                                                                                      Amounts                Expended        Credits      Governmental
                                                                                     Billed Not               Not Yet       Due from        Accounts
                                                                                    Yet Paid(1)              Billed (2)     Public (3)    Receivable(4)
                                                                                     (Dollars in             (Dollars in    (Dollars in     (Dollars in
  AGENCY                                                                            thousands)              thousands)     thousands)      thousands)

  U. S. Department of Health and Human Services                                             41,340                 6,076         (152)            47,264

  U. S. Department of Housing and Urban Development                                       $14,762                $2,045          ($53)           $16,754

  U. S. Department of the Interior                                                          95,217               14,005          (357)           108,865

  U. S. Department of Justice                                                             159,639                26,286          (615)           185,310

  U. S. Department of Labor                                                                45,254                  7,323         (197)            52,380

  U. S. Department of the Navy                                                            490,419                70,819         (1,771)          559,467

  U. S. Department of State                                                                 12,736                 2,134           (50)           14,820

  U. S. Department of Transportation                                                      193,759                28,794          (709)           221,844

  U. S. Department of the Treasury                                                        154,019                23,920          (579)           177,360

  U. S. Department of Veterans Affairs                                                    280,079                41,464         (1,050)          320,493

  Other agencies                                                                          100,901                17,984          (459)           118,426

  Total - all agencies (Memo Only)                                                    $2,685,020               $600,237      ($14,839)        $3,270,418




1 Amounts billed through June 30, 2000 (including prior years) but not yet paid as of September 30, 2000.
2 Amounts expended but not yet billed for the period July 1, 2000 through September 30, 2000.
3 Allocation of credits due from public through September 30, 2000.
4 Total Amount due to the fund for each agency as of September 30, 2000.


                                                                                  15
                                       SECTION IIB-3
                               U.S. DEPARTMENT OF LABOR
                       EMPLOYMENT STANDARDS ADMINISTRATION
                        FEDERAL EMPLOYEES' COMPENSATION ACT
                                  SPECIAL BENEFIT FUND
                        SCHEDULE OF BENEFIT EXPENSE BY AGENCY
                    AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2000


                                                                        Change in        Total
                                                          Benefit        Actuarial      Benefit
                                                         Payments        Liability      Expense
                                                         (Dollars in    (Dollars in    (Dollars in
AGENCY                                                   thousands)     thousands)     thousands)
Agency for International Development                          $3,289        ($8,054)         ($4,765)

Environmental Protection Agency                                3,351           3,860           7,211

Federal Emergency Management Agency                            2,461          10,207          12,668

General Services Administration                                16,557         11,053          27,610

National Aeronautics and Space Administration                   6,298          4,210          10,508

National Science Foundation                                      120            522              642

Nuclear Regulatory Commission                                    749           4,345           5,094

Office of Personnel Management                                  1,115          6,178           7,293

United States Postal Service                                  670,683      1,424,976       2,095,659

Small Business Administration                                   2,341         14,161          16,502

Social Security Administration                                 19,556         54,180          73,736

Tennessee Valley Authority                                     55,605       (22,697)          32,908

U. S. Department of Agriculture                                64,700        186,416         251,116

U. S. Department of the Air Force                             129,189        122,365         251,554

U. S. Department of the Army                                  165,737        216,558         382,295

U. S. Department of Commerce                                   15,172         46,583          61,755

U. S. Department of Defense - other                            64,163        193,998         258,161

U. S. Department of Education                                   1,609         10,238          11,847

U. S. Department of Energy                                      8,178         18,040          26,218

U. S. Department of Health and Human Services                  20,933         84,366         105,299

U. S. Department of Housing and Urban Development               7,025         12,769          19,794



                                                    16
                                               SECTION IIB-3
                                       U.S. DEPARTMENT OF LABOR
                               EMPLOYMENT STANDARDS ADMINISTRATION
                                FEDERAL EMPLOYEES' COMPENSATION ACT
                                          SPECIAL BENEFIT FUND
                                SCHEDULE OF BENEFIT EXPENSE BY AGENCY
                            AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2000


                                                                                                            Change in        Total
                                                                                         Benefit             Actuarial      Benefit
                                                                                        Payments             Liability      Expense
                                                                                        (Dollars in         (Dollars in    (Dollars in
    AGENCY                                                                              thousands)          thousands)     thousands)
    U. S. Department of the Interior                                                            48,452           131,040         179,492

    U. S. Department of Justice                                                               $85,783           $303,616        $389,399

    U. S. Department of Labor                                                                   19,832           100,627         120,459

    U. S. Department of the Navy                                                              241,467            254,223         495,690

    U. S. Department of State                                                                    6,848          (10,958)          (4,110)

    U. S. Department of Transportation                                                          97,621          (22,206)          75,415

    U. S. Department of the Treasury                                                            78,996           169,530         248,526

    U. S. Department of Veterans Affairs                                                      142,572            364,641         507,213

    Other agencies (1)                                                                        100,247             22,251         122,498

    Total - all agencies (Memo Only)                                                       $2,080,649         $3,707,038      $5,787,687




1
    Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.

                                                                          17
                                          SECTION IIC
                               AGREED-UPON PROCEDURES & RESULTS



SUMMARY

Our objective was to perform specified agreed-upon procedures to the Schedules of Actuarial Liability by
Agency, Net Intra-Governmental Accounts Receivable by Agency and Benefit Expense by Agency as of and
for the year ended September 30, 2000, as summarized below:

C       Applied certain agreed-upon procedures as detailed in this section of the report to the estimated accrued actuarial
        liability of future FECA benefit payments as of September 30, 2000. A certified actuary was engaged to review the
        calculation of the actuarial liability.

C       Applied certain agreed-upon procedures as specified in this section of the report to the net intra-governmental
        accounts receivable billings and balances for the period ending September 30, 2000.

C       Applied certain agreed-upon procedures as outlined in this section of the report to the compensation and medical
        payments for the period October 1, 1999 to May 31, 2000 (sampling period), and for the period October 1, 1999 to
        September 30, 2000, and to DOL’s cut-off process. Calculated the change in the actuarial liability from the prior year
        to the current year.

These procedures were performed in accordance with standards established by the American Institute of
Certified Public Accountants and Government Auditing Standards, issued by the Comptroller General of the
United States.

Each section of this agreed-upon procedures report is organized as follows:
1.     Overview of results.
2.     A detailed listing of the agreed-upon procedures performed for this engagement.
3.     Results of agreed-upon procedures.

In summary, we applied the following agreed-upon procedures:

Actuarial Liability - During the year ended September 30, 2000, DOL engaged a national actuarial consulting
firm to develop an actuarial model to replace the model used previously. The actuarial liability was determined
for the year ending September 30, 2000, using a new model.

Consistent with prior years, the actuarial liability was evaluated by an independent actuary. The independent
actuary did not participate in the design of the new model. Agreed-upon procedures were performed on the
methodology, assumptions and information used in the model. The 2000 benefit payments predicted by the new
model for 1999 were compared to actual payments made in 2000, and analytical procedures were performed
which sought to relate the change in the liability amount by agency to the change in the aggregate liability.




                                                            18
                                        SECTION IIC
                             AGREED-UPON PROCEDURES & RESULTS


Procedures performed in prior years were supplemented because of the new model. Additional procedures
included:

1.      Testing that the history of the payment data imported into the new model agreed with the benefit
        payments in prior years;

2.      Comparing the new model's actuarial liability by agency for fiscal year 2000 to what the new model
        indicated would have been the liability for fiscal year 1999 had the model been in place last year and seek
        explanations for the change.

Net Intra-Governmental Accounts Receivable - Confirmation letters regarding the accounts receivable as of
September 30, 2000, were mailed and confirmed with the CFO Act and other selected agencies. Agreed-upon
procedures were performed on FY 2000 accounts receivable as compared with FY 1999 accounts receivable
with regards to new receivables, collections, write-offs, and chargebacks and explanations were requested for
changes of over 5 percent.

Benefit Expense - Agreed-upon procedures were applied to the benefit payments made during the current fiscal
year by district office, by strata, and by agency as compared to benefit payments of the prior fiscal year and to
DOL’s cut-off process. Calculated the change in the actuarial liability from the prior year to the current year.




                                                       19
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS


ACTUARIAL LIABILITY

Overview of Results
The actuarial model and the resulting actuarial liability were evaluated by an independent actuary. The
independent actuary issued a report which stated the aggregate actuarial liability was reasonably stated in
accordance with Actuarial Standards. We performed agreed-upon procedures on the calculation of the actuarial
liability by employing agency. Our procedures included considerations of how the change in each agency's liability
related to the change in the total estimate, its own history, its group, and to the benefit payments made during the
current year. Furthermore, we compared the new model's 1999 prediction of the current year payments to the
actual payments made on behalf of the agency.

In aggregate, the new model calculates a liability approximately 26 percent higher than the old model. We were
unable to isolate the amount of change by the separate factors of the model; for instance, those as a result of
groupings, backfilling, IBNR, or extension of duration.

Procedures and Results

        Agreed-Upon Procedures Performed                                   Results of Procedures

 Engaged a certified actuary to review the           The actuary’s evaluation of the methodology used in the model
 calculations of the actuarial liability as to:      did not disclose any specific concerns regarding the
 C        Whether or not the assumptions used by     methodology and assumptions.
          the model were appropriate for the
          purpose and method to which they were      The actuary concluded that the model calculated a liability that
          applied.                                   was generally reasonable under the method and assumptions
 C        Whether or not the assumptions were        used. The actuary tested the calculations included in the model
          reasonable representations for the         and found that they were performed consistent with the model's
          underlying phenomena which they            stated assumptions.
          model.
 C        Whether or not such assumptions were
          being applied correctly and if other
          calculations within the model were being
          performed in a manner as to generate
          appropriate results.
 C        Whether or not changes in the
          assumptions over the years affected
          trends.
 C        Whether or not tests of calculations
          provided a reasonable basis regarding
          the integrity of the model as a whole.
 C        Whether or not the overall results were
          reasonable.




                                                         20
                                          SECTION IIC
                               AGREED-UPON PROCEDURES & RESULTS


       Agreed-Upon Procedures Performed                                      Results of Procedures

Confirmed with the American Academy of                 The actuarial specialist was accredited and in good standing with
Actuaries and the Casualty Actuarial Society as to     the American Academy of Actuaries and the Casualty Actuarial
whether the actuary was accredited and in good         Society. The actuarial consulting firm certified that they were
standing with the associations. Obtained a             independent from DOL-FECA. The actuarial consulting firm
statement of independence from the actuarial firm.     provided references stating experience in the type of work
Obtained two references from clients of the            required for this engagement.
actuarial firm as to the actuary's work.

Compared the economic assumptions used by the          The model utilizes estimates of prospective inflation and interest
model for 1999 to the assumptions used during the      rates to project and then discount future benefit payments. As
current year.                                          published by OMB, prospective interest rates of 10-year
                                                       Treasury bills increased from 5.6% for the prior year to 6.3% for
                                                       the current year, for a rate change of approximately +.7%.
                                                       Concurrently, the Bureau of Labor Statistics’ (BLS) estimates of
                                                       COLA increased from 2.5% for the prior year to 2.6% for the
                                                       current year, and CPI-Med factors increased from 4.08% for the
                                                       prior year to 4.16% for the current year. In combination, these
                                                       rate changes resulted in an increase in the net effective rate
                                                       (interest rate less inflation rate) of approximately .5%. The result
                                                       of the changes in estimated prospective rates was to decrease
                                                       the estimated actuarial liability by approximately 5.14% from what
                                                       the liability would have been had 1999 rates been used for the
                                                       year 2000 calculation.

Compared the interest and inflation rates used by      We determined that the interest rates used in the model were the
the model to the source documents from which           same interest rates stated in OMB’s publication.
they were derived.
                                                       We determined that the inflation rates used in the model were
                                                       derived from the BLS indices cited. The rates from the BLS
                                                       indices were adjusted to accommodate the difference between
                                                       the year end of the actuarial model and the year end of the cited
                                                       rates. We recalculated the blended rates without exception.

Compared the actuarial liability by agency as          The liability reported on the Memorandum issued to the CFOs of
reported in a Memorandum to the CFOs of                Executive Departments of the unaudited estimated actuarial
Executive Departments of the unaudited estimated       liability for future workers' compensation benefits agreed with the
actuarial liability for future workers' compensation   liability calculated by the model and reported on the Projected
benefits to the liability calculated by the model      Liability Reports.
and reported on the Projected Liability Reports.

Compared by agency and in aggregate, the 1998-         The amounts in aggregate agreed without exception. By agency,
2000 benefit payments downloaded to the model          approximately $168,000 of 1998 DOT benefit payments had been
with the amount of benefit payments reflected in       downloaded as "Other Agencies". This amount represented
the Summary Chargeback Billing Report, to              approximately .17% of DOT's 1998 payments. No other
determine whether the benefit payment data used        exceptions were noted.
by the model was the same data upon which
agreed-upon procedures for benefit payments
were performed.



                                                            21
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS


       Agreed-Upon Procedures Performed                                      Results of Procedures

Compare in aggregate the historical benefit           We tested that the historical data had been imported correctly to
payments downloaded to the model for 1989-1997        the new model as to year and amount. Our tests disclosed no
to the prior year reports reflecting such payments.   exceptions.

Through consultation with the independent             Backfilling extrapolates from recent payment years, payment
actuary, noted the impact of the backfilling          patterns which theoretically occurred in periods prior to when
methodology upon the agencies.                        payment data was kept. The importance in relation to this model
                                                      is that benefits are paid on injury years as far back as 1952, a
                                                      span which includes many years not included in FECA's
                                                      databases.

                                                      The independent actuary’s report indicated that while the same
                                                      data problem might have been addressed using different designs,
                                                      that one would expect such to achieve much the same result. The
                                                      actuary’s report also indicated the methodologies had been
                                                      applied correctly

                                                      In the course of creating the backfilling, the designers of the
                                                      model identified several agencies whose data appeared to be
                                                      incomplete. These were agencies who more recently began to be
                                                      tracked by FECA, or who had been split off from other agencies,
                                                      impairing the usefulness of the older payment data. Payment data
                                                      used for those agencies was limited to the most recent three or
                                                      four years. These agencies would be affected more dramatically
                                                      by backfilling. The agencies potentially effected are SSA, NSF,
                                                      SBA, OPM, NRC, and AID.

                                                      Because the backfilling factors were determined by grouping the
                                                      agencies, one result of backfilling would be to pull an agency's
                                                      experience towards the average of the group. For instance, the
                                                      above cited agencies belonged to Group III, which had the
                                                      highest liability to benefits paid ratio (LBP). Belonging to this
                                                      group would indicate that their liability was pulled towards that
                                                      average more dramatically than occurred with agencies whose
                                                      data set was larger.

                                                      Finally, agencies with a higher proportion of older claims would
                                                      be affected more significantly; once again, being pulled towards
                                                      the average experience of the group. Such agencies would be
                                                      those whose work force had diminished or who had otherwise
                                                      reduced the proportion of new claims to older claims.

                                                      As more years of data are collected, the relative affect of the
                                                      backfilling will diminish.




                                                           22
                                          SECTION IIC
                               AGREED-UPON PROCEDURES & RESULTS


       Agreed-Upon Procedures Performed                                   Results of Procedures

Determined the basis of the agency groupings and    The grouping was determined premised on a claim duration
perform tests to establish the consistency of the   probability study performed by a DOL economist. Both the
grouping. Determined the impact of such inclusion   designers of the model and the independent actuary agreed that
in a grouping.                                      the study provided a basis for such groupings. We traced the
                                                    groupings to the study. We noted that the study had included
                                                    data through 1991, and therefore, agencies newer to FECA had
                                                    not been studied. These agencies were placed in Group III,
                                                    whose average probability approximated the average of the
                                                    aggregate population. These agencies are AID, FEMA, NSF,
                                                    NRC, OPM, SBA, and SSA.

                                                    As stated above, group experience is used to develop the
                                                    backfilling factors. Also, group experience is factored into the
                                                    loss development feature used to project the pattern of future
                                                    payments. Experience of the group would calculate most
                                                    significantly in smaller agencies.

Determined the impact of the inclusion of IBNR in   We were unable to quantify the impact of IBNR since its
the revised model, if possible.                     inclusion is implicit to the methodology, rather than an add-on
                                                    estimate to reported claims. In a general sense, the inclusion of
                                                    IBNR increased the liability, but in an amount which could not be
                                                    isolated from other factors.

Compared the new model's recalculation of the       The aggregate liability as calculated by the revised model
actuarial liability for 1999 to the new model's     changed from 1999 to 2000 by approximately -4.2% with the five
calculation of the actuarial liability for 2000.    groups ranging from -2.1% to -4.8%. In aggregate, the change
Sought to identify the factors which caused         reflects an increase in medical payments, more than offset by an
fluctuations of greater than 10%.                   increase in the net discount rates as published by the OMB. No
                                                    agencies fluctuated by more than 12%. The following agencies
                                                    decreased between 10% and 12%: HHS, Education, NSF, SBA, &
                                                    OPM.

                                                    These agencies shared the following characteristics: in terms of
                                                    size, they are smaller agencies; they increased relative to the old
                                                    model disproportionately; the change from the revised model’s
                                                    recalculation of the 1999 to the calculation of 2000 brought them
                                                    closer to the average liability to benefits paid ratio (LBP).

                                                    We also note that despite the decline, these agencies reflect an
                                                    LBP in excess of the aggregate LBP (10.6). This indicator runs
                                                    counter to the concern that the decline in the cited agencies
                                                    resulted in a possible understatement of their liability.




                                                         23
                                          SECTION IIC
                               AGREED-UPON PROCEDURES & RESULTS


       Agreed-Upon Procedures Performed                                      Results of Procedures

Quantify the change in the 1999 estimate of the        The revised model calculated a 1999 liability 26% higher than the
actuarial liability as calculated by the model used    model used last year, representing a 22% increase in
last year to the revised model’s recalculation of      compensation, and a 57% increase in medical.
1999. Identify those agencies whose liability
varied significantly from the change in the overall    The actuaries who designed the model indicated the increase in
liability: e.g., increased more than 50% or declined   the liability was the result of a number of factors including the
by more than 10%. Describe characteristics of          inclusion of IBNR, extending the duration of the model, and the
agencies who changed in that fashion.                  backfilling technique. The actuaries indicated that the factors
                                                       could not be separately quantified in a cost-effective fashion
                                                       because each of the factors were intrinsic to the basic
                                                       methodology and the separate amounts could not be calculated
                                                       without each of the factors included.

                                                       The following agencies increased by more than 50%: HHS (64%),
                                                       Education (145%), NSF (61%), SBA (108%), OPM (120%), NRC
                                                       (116.5%), FEMA (96%), and DOL (90%).

                                                       The following agencies decreased by more than 10%: AID (-
                                                       18%), State (-16%).

                                                       These ten agencies are smaller agencies representing 3% of the
                                                       total actuarial liability. In the prior years’ models, the smaller
                                                       agencies were more volatile than other agencies. The agencies
                                                       with increases had lower than average (9.3) LBP ratios in the prior
                                                       model. Both agencies which declined had higher than average
                                                       LBP ratios in the prior model. Five of the agencies were among
                                                       those whose population of benefit claims payment history used
                                                       were limited to three years and could be most affected by
                                                       backfilling: NSF, SBA, OPM, NRC, and AID.

                                                       For the agencies who declined, the population was older, by the
                                                       year of injury, than in other agencies. For the agencies who
                                                       increased, the population was mixed by year of injury. The ratio
                                                       of medical to compensation claims were also mixed.




                                                            24
                                          SECTION IIC
                               AGREED-UPON PROCEDURES & RESULTS


       Agreed-Upon Procedures Performed                                       Results of Procedures

Compared the benefit payments predicted by the          Payments increased in constant dollars approximately 3.62 %
revised model for year 2000 to the actual benefit       during FY2000, comprised of a 12.5% increase in medical benefit
payments. Considered whether differences                payments and a .7% increase in compensation. The aggregate
indicated the model was over or understating the        trend of the last four years is a 4% average annual increase in
liability.                                              medical offset for the most part by a slight decline in
                                                        compensation of -.1%. The number of medical cases upon which
                                                        claims were paid increased by only 4% which indicates that
                                                        approximately 75% of the increase in medical payments was
                                                        price-based rather than volume-based. The increase in
                                                        compensation was almost all volume-based.

                                                        Actual payments were approximately 7.3% higher than predicted,
                                                        fundamentally as a result of the increase in medical payments
                                                        overall. The predicted payments would not include payments
                                                        made on claims incurred and paid during fiscal year 2000. The
                                                        projection would include IBNR.

                                                        The following agencies’ actual payments varied from the
                                                        prediction by more than 20%: EPA (+34%), SSA (+23%), AID
                                                        (+51%), DOD (+28%), FEMA (+29%), and State (41.2%).
                                                        Concerns that the analytical procedures indicated that SSA and
                                                        DOD’s were understated were mitigated by their coverage ratios
                                                        which were higher than average at 12.0 and 13.5, respectively.
                                                        We question the usefulness of the analytical procedure for
                                                        FEMA where the amount of the underestimate approximated the
                                                        actual increase in FEMA’s payments.

                                                        Consideration of LBP did not mitigate the analytical procedure
                                                        for EPA, AID, and State. These agencies’ payments increased by
                                                        approximately 13% during the year 2000, in amounts far less than
                                                        the model underestimated the year 2000 payments.

Calculated the ratio of the agency liability to the     The liability to benefits paid ratio for the aggregate liability was
benefit payments (LBP) by agency and compared           approximately 10.6%. By group, the range of the ratio was from
this to the overall ratio and group ratio. Identified   9.5 (Postal Service-Group IV) to 12.2 (Group III). The following
and sought explanation for those agencies for           agencies varied by more than 15% from their group’s ratio and
which the ratio varied by more than 15% from their      fell outside the range of group ratios: HHS (12.7-Group I), SBA
group ratio, and lay outside the range of group         (14.1- Group III) , FEMA (9.3-Group III), and State (7.6- Group IV).
averages.
                                                        Payment trends and the actual to estimated payments did not
                                                        mitigate indicators that HHS and SBA might be overstated, and
                                                        FEMA and State might be understated.

                                                        The actuary indicated that HHS and FEMA were within a
                                                        reasonable range of values.




                                                             25
                                          SECTION IIC
                               AGREED-UPON PROCEDURES & RESULTS


       Agreed-Upon Procedures Performed                                     Results of Procedures

Compared the actuarial liability for the Postal        The actuarial liability computed for the Postal Service was 9.86%
Service calculated by the model to the actuarial       higher than the Postal Service's independent computation. Last
liability calculated by the Postal Service's           year, the old model calculated to within -12.1% of the amount
independent model.                                     computed by the Postal Service. Historically, the model varied
                                                       from the Postal Service's calculation by as much as 20%. The
                                                       Postal Service is not grouped in the model with any other
                                                       agency.
                                                       Both models are premised upon historic extrapolation models, but
                                                       vary in methodology.

Performed a limited survey of interest and inflation   Surveyed rates for compensation ranged from 2.38% to 4.00%
rates utilized by the Postal Service, OPM, and two     and for medical ranged from 1.4% to 2.11%. The model's rates
other sources with governmental actuarial              compute to net effective rates of approximately 3.65% for
liabilities experience. Determined how the             compensation and 2.14% for medical. The medical portion of the
surveyed net effective rates compared to the           liability comprises approximately 17.4% of the total. A higher
interest rates used in the model.                      rate equates to the calculation of a lower liability.




                                                           26
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS


NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Overview of Results

Agreed-upon procedures were applied to the net intra-governmental accounts receivable as of September 30,
2000, as compared with net intra-governmental accounts receivable as of September 30, 1999, with regards to
new receivables, collections, write-offs, and chargebacks.

We compared the fiscal year 2000 net intra-governmental accounts receivable to the fiscal year 1999 net intra-
governmental accounts receivable and investigated changes of over 5 percent. We also compared new
receivables, collections and write-offs for fiscal year 2000 to fiscal year 1999; calculated the accounts receivable
outstanding for each fiscal year; calculated the chargeback and fair share total for 2000; and confirmed the
chargeback amounts billed for claimants' payments directly with the Federal agencies charged.

Procedures and Results

           Agreed-Upon Procedures Performed                                 Results of Procedures


 Compared prior year ending net intra-governmental       The change in the net intra-governmental accounts
 accounts receivable balances to the current year net    receivable balances was in proportion to the increases in
 intra-governmental accounts receivable balance by       benefit payments billed to each Federal agency.
 Federal agency. Determined whether the increase or
 decrease was in proportion to the change in amounts
 billed.

 Compared the fiscal year 2000 account activity by       The change in the write-offs and new accounts were in
 Federal agency for write-offs and new accounts          proportion with the amounts billed and collected.
 receivable to prior fiscal year activity. Determined
 whether the increase or decrease was in proportion to
 the change in amounts billed and collected.

 Confirmed accounts receivable balances due as of        Returned confirmations were reviewed for agreement to
 September 30, 2000, for all Federal agencies.           amounts recorded. Explanations for the differences were
                                                         obtained. Department of Defense, specifically Department
                                                         of Navy, Department of Army and Department of Defense
                                                         (Other), were unable to confirm all of the balances due to
                                                         DOL.




                                                         27
                                           SECTION IIC
                                AGREED-UPON PROCEDURES & RESULTS


                                                               Unreconciled differences for the Department of Defense
                                                               totaled approximately $22 million of $1.068 billion (less than
                                                               2%) as follows:

                                                                                  DOL              DOD                     Diff
                                                               Dept. of Army    $329,710 $329,735 $25
                                                               Dept. of Navy     559,467 559,461               (6)
                                                               Dept. of Defense 179,285 179,288                 3
                                                                             $1,068,462      $1,068,484              $22

                                                               As a result of these discrepancies, DOL and DOD have
                                                               formed an interagency workgroup to reconcile and resolve
                                                               these differences.

Compared the chargeback billing report for the period,         The amounts billed to the Federal agencies for the period
July 1, 1999 through June 30, 2000, to the amounts billed      July 1, 1999 through June 30, 2000, agreed to the
to the Federal agencies.                                       chargeback billing report.

Recalculated the allocation of credits due from the            No exceptions were noted.
public.

Determined, for a non-statistical sample of 77 items,          In 3 of 17 accounts receivable, the amounts were
whether claimant accounts receivable overpayments              incorrectly reported in the DMS, resulting in a net
were properly established and classified.                      overstatement of $31,999.

Determined, for a non-statistical sample of 77 items,          In 2 of 77 accounts receivable in the final status, a final
whether, for cases in the preliminary status, the Letter       decision was not properly made, properly recorded or the
CA-2201 or Letter CA-2202, as applicable, was properly         claimant was properly notified of the final decision.
issued to notify the claimants of the preliminary decision
regarding the claimant’s accounts receivable and to give
the claimant an opportunity to provide additional
evidence regarding the accounts receivable. Determined
whether, for cases in the final status, a final decision was
made as to the debt and whether the final decision was
properly recorded and reported to the claimant.

Determined, for a non-statistical sample of 77 items,          In 1 of 77 accounts receivable, a debt was not
whether the proper procedures were followed with               appropriately offset against a lump sum payment of
regards to the establishment of a repayment plan, the          $56,540.
assessment of interest, the compromise or waiving of
portions of interest or principal as appropriate and the       In 3 of 77 accounts receivable, a portion of the interest or
pursuit of accounts receivable which were in arrears.          principal on the debts were not properly written-off,
                                                               adjusted or compromised, resulting in a net overstatement
                                                               of approximately $241,414.




                                                               28
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS


BENEFIT EXPENSE

Overview of Results

Agreed-upon procedures were applied to compensation and medical benefit payments in total, by strata, by
average payment and by agency for the fiscal year ended September 30, 2000, to the fiscal year ended
September 30, 1999, and for the sampling period of October 1, 1999 to May 31, 2000, to the sampling period
of October 1, 1998 to May 31, 1999. Changes in the actuarial liability from the prior year to the current year
were calculated. Agreed-upon procedures were applied to DOL's cut-off process.

Procedures and Results

 Agreed-Upon Procedures Performed                       Results of Procedures

 Compared the benefit payments recorded in the          The benefit payments recorded in the ACPS and BPS
 Automated Compensation Payment System (ACPS)           databases varied from the Department of Treasury’s SF-224 at
 and Benefit Payment System (BPS) databases to the      May 31, 2000, by .96%. As of September 30, 2000, the ACPS
 Department of Labor's general ledger and the           and BPS databases varied from the Department of Treasury’s
 Department of Treasury’s SF-224s as of September       SF-224 at September 30, 2000, by .07% ($1.5 million) and from
 30, 2000.                                              the Department of Labor’s general ledger by .16% ($3.2
                                                        million).

 Obtained the Department of Labor's year-end cut-off    The year-end adjustment made to the general ledger to prorate
 procedures. Obtained the year-end adjustments          the expenditures which overlapped fiscal years agreed to the
 made to the general ledger to prorate expenditures     supporting documentation. The adjustments were recorded in
 which overlapped fiscal years. Determined if these     the correct period.
 adjustments were recorded in the correct period.

 Determined the average ACPS and BPS payments by        The average ACPS benefit payments by strata at May 31, 2000,
 strata for the May 31, 2000, and September 30, 2000,   and September 30, 2000, was compared to the prior year. The
 database and compared them to the average ACPS         average ACPS benefit payments by strata did not increase by
 and BPS payments by strata for the May 31, 1999,       more than 7% at May 31, 2000 or September 30, 2000. Average
 and September 30, 1999, databases. Determined if       ACPS benefit payments by strata decreased by more than 7%
 there were any variances larger than 7%. Requested     at May 31, 2000 and/or September 30, 2000, for two strata: the
 explanations from DOL for variances over 7%, if any.   credits from overpayments (transactions less than $0) strata
                                                        and the strata of payments from $150,000 - $1,000,000 strata.
                                                        The decrease in credits from overpayments was due to the
                                                        overall reduction of accounts receivable and the decrease in
                                                        the lump sum payments over $150,000 was due to the prior
                                                        year’s reduction of the backlog in Hearing and Reviews
                                                        resulting in fewer cases for review and payment in the current
                                                        year.




                                                          29
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS


Agreed-Upon Procedures Performed                         Results of Procedures

                                                         The average BPS benefit payments by strata at May 31, 2000
                                                         and September 30, 2000, were compared to the prior year. The
                                                         average BPS benefit payments by strata did not increase by
                                                         more than 7% at May 31, 2000 or September 30, 2000. Average
                                                         BPS benefit payments by strata decreased by more than 7% at
                                                         May 31, 2000 and/or September 30, 2000, for one strata, the
                                                         credits from overpayments (transactions less than $0) strata.
                                                         The decrease in credits from overpayments resulted from the
                                                         increased accuracy in medical bill payment processing.

Compared the total benefit payments for each of the      As a result of our analysis of 5 years of benefit payment data,
last 5 fiscal years. Determined if there were any        total benefit payments did not vary by more than 5% compared
variances larger than 5% for each of the 5 fiscal        to the prior year’s benefit payments.
years. Requested explanations from DOL for
variances over 5%, if any.

Compared the summary chargeback billing list to the      The agency chargeback billing list varied from the benefit
benefit payment database as of September 30, 2000.       payment database for the fiscal year ending September 30,
                                                         2000, by 0.04%.

Compared, by agency and in total, compensation           Benefit payments for the fiscal year ending September 30, 2000,
and medical bill payments for the fiscal year ending     increased 4.48% overall. Benefit payments increased by more
September 30, 2000, with payments made for the           than 7%, for the Executive Office of the President, Labor, State,
fiscal year ending September 30, 1999. Requested         Smithsonian Institution, Central Intelligence Agency, Justice,
explanations from DOL for variances over 7%, if any.     Postal Service, Agriculture, Commerce, Corporation for
                                                         National & Community Service, FEMA, Peace Corps and
                                                         Social Security Administration. Benefit payments decreased
                                                         by more than 7% for HUD. The increases were attributable to
                                                         single large incidents involving numerous employees which
                                                         lead to an increase in benefit payments and/or an increase in
                                                         agency employment levels.

Compared the benefit payments made by each               Benefit payments by district office for the period through May
district office as of May 31, 2000, and September 30,    31, 2000 and September 30, 2000, varied from the prior year by -
2000, to the prior year data. Determined if there were   12.00% to 32.37% for the 12 district offices. Benefit payments
any variances larger than 5%. Requested                  increased by more than 5% for Boston, New York, Chicago,
explanations from DOL for variances over 5%, if any.     San Francisco, Dallas, and Washington D.C. (District). Benefit
                                                         payments decreased by more than 5% for Cleveland and
                                                         Washington D.C. (National). The increases by district office
                                                         were due, in part, to the overall increase in benefit payments.
                                                         The decrease and some increases were due, in part, in the
                                                         movement of cases among the district offices.




                                                           30
                                           SECTION IIC
                                AGREED-UPON PROCEDURES & RESULTS


Agreed-Upon Procedures Performed                   Results of Procedures

Calculated a 12-month projected benefit payment    The actual 12-month total benefit payments varied from the
based on the May 31, 2000 database (8 month).      projected 12-month total benefit payments for the fiscal year
Compared the projected 12-month total benefit      ending September 30, 2000, by -1.52%.
payments to the actual 12-month total benefit
payments as of September 30, 2000.

Calculated the change in the actuarial liability   No exceptions were noted.
reported on the current year and prior year’s
compilation report prepared by DOL.




                                                     31
                                                                                        Carmichael
                                                                                     Brasher Tuvell
C e r t i f i e d             P u b l i c           A c c o u n t a n t             s & Company
                                                                      678-443-9200
                                                            Facsimile 678-443-9700
                                                                  www.cbtcpa.com

                                       SECTION IIIA
                          INDEPENDENT SERVICE AUDITORS' REPORT


Bernard E. Anderson, Assistant Secretary
Employment Standards Administration, U.S. Department of Labor,
General Accounting Office, Office of Management and Budget, and Other Specified User
Agencies:

We have examined the accompanying description of the policies and procedures of the Division of Federal
Employees' Compensation applicable to general computer controls and the processing of transactions for users
of the Federal Employees' Compensation Act Special Benefit Fund. Our examination included procedures to
obtain reasonable assurance about whether (1) the accompanying description presents fairly, in all material
respects, the aspects of DFEC policies and procedures that may be relevant to the internal controls of users of
the FECA Special Benefit Fund; (2) the control structure policies and procedures included in the description
were suitably designed to achieve the control objectives specified in the description, if those policies and
procedures were complied with satisfactorily, and users of the FECA Special Benefit Fund applied the internal
control policies and procedures contemplated in the design of DFEC's policies and procedures, as described in
Section IIIB; and (3) such policies and procedures had been placed in operation as of May 31, 2000.

DFEC uses SunGard Computer Services, Inc. (SunGard), to process information and to perform various
functions related to the data processing services of the FECA Special Benefit Fund. The accompanying
description includes only those policies and procedures and related control objectives at DFEC, and does not
include policies and procedures and related control objectives at SunGard, a subservicer. The control objectives
were specified by the management of DFEC and did not extend to the controls at SunGard. Our examination
did not extend to the controls of SunGard, the subservicer. Our examination was performed in accordance with
standards established by the American Institute of Certified Public Accountants, Government Auditing
Standards, issued by the Comptroller General of the United States, and included those procedures we
considered necessary in the circumstances to obtain a reasonable basis for rendering our opinion.

In our opinion, the accompanying description of the policies and procedures of DFEC presents fairly, in all
material respects, the relevant aspects of DFEC's policies and procedures that had been placed in operation as
of May 31, 2000. Also, in our opinion, the policies and procedures, as described, are suitably designed to
provide reasonable assurance that the specified control objectives would be achieved if the described policies
and procedures were complied with satisfactorily and users of the FECA Special Benefit Fund applied the
internal control policies contemplated in the design of the DFEC's policies and procedures.
In addition to the procedures we considered necessary to render our opinion, as expressed in the previous
paragraph, we applied tests to specified policies and procedures to obtain evidence about their effectiveness in

                                                      32
meeting the related control objectives during the period from October 1, 1999 through May 31, 2000. The
specific policies and procedures and the nature, timing, extent, and results of the tests are summarized in Section
IIIC. This information has been provided to the users of the FECA Special Benefit Fund and to their auditors
to be taken in consideration, along with information about the internal controls at user organizations. In our
opinion, the policies and procedures that were tested, as described in Section IIIB were operating with sufficient
effectiveness to provide reasonable, but not absolute, assurance that the specified control objectives were
achieved during the period from October 1, 1999 through May 31, 2000. However, the scope of our
engagement did not include tests to determine whether control objectives not listed in Section IIIC were
achieved; accordingly, we express no opinion on the achievement of control objectives not included in Section
IIIC.

The relative effectiveness and significance of specific policies and procedures at DFEC and their effect on
assessment of control risk at user organizations are dependent on their interaction with the policies and
procedures, and other factors present at individual user organizations. We have performed no procedures to
evaluate the effectiveness of policies and procedures at individual user organizations.

The description of policies and procedures at DFEC is as of May 31, 2000, and information about tests of the
operating effectiveness of specified policies and procedures covers the period October 1, 1999 through May
31, 2000. Any projection of such information to the future is subject to the risk that, because of change, the
description may no longer portray the system in existence. The potential effectiveness of specified policies and
procedures at DFEC is subject to inherent limitations and, accordingly, errors or irregularities may occur and not
be detected. Furthermore, the projection of any conclusions based on our findings to future periods is subject
to the risk that changes may alter the validity of such conclusions.

This report is intended solely for the information and use of the U.S. Department of Labor, General Accounting
Office, Office of Management and Budget, users of the FECA Special Benefit Fund (Federal agencies listed in
Section IIB of this report), and the independent auditors of its users.




                                      December 15, 2000




                                                        33
                                       SECTION IIIB
                    DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                                POLICIES AND PROCEDURES

OVERVIEW OF SERVICES PROVIDED

Overview

The Federal Employees' Compensation Act Special Benefit Fund was established by FECA to provide income
and medical cost protection worldwide for job-related injuries, diseases, or deaths of civilian employees of the
Federal Government and certain other designated groups. The DOL-ESA is charged with the responsibility of
operation and accounting control of the Special Benefit Fund under the provisions of FECA. Within ESA, the
Office of Workers' Compensation Program, DFEC administers the FECA program.

In 1908, Congress passed legislation providing workers' compensation to Federal workers whose jobs were
considered hazardous. Due to the limited scope of this legislation, FECA was passed in 1916, extending
workers' compensation benefits to most civilian Federal workers. FECA provided benefits for personal injuries
or death occurring in the performance of duty.

FECA provides wage replacement (compensation) benefits and payment for medical services to covered Federal
civilian employees injured on the job, employees who have incurred a work-related occupational disease, and
the beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Not
all benefits are paid by the program since the first 45 days from the date of the traumatic injury are usually
covered by putting injured workers in a continuation of pay (COP) status. FECA also provides rehabilitation
for injured employees to facilitate their return to work.

Actuarial Liability

Within ESA, the Division of Financial Management has been designated as the responsible agency to generate
the annual FECA actuarial calculations. The Division of Planning, Policy and Standards (DPPS) has the direct
responsibility for preparing the actuarial liability and the initial review of the detailed calculations. The DPPS also
has the responsibility of investigating and revising the initial model's calculations as deemed appropriate. The
FECA actuarial liability is prepared on an annual basis as of September 30, 2000.

The actuarial model was originally developed during 1991 as spreadsheets by a DOL Office of Inspector General
(OIG) contractor (a certified actuary). The model utilized the basic theory that future benefit payment patterns
will reflect historic payment patterns. Under this approach, a projection can be made into future years based on
historical payments. This selected approach is commonly referred to as the "paid loss extrapolation method."
This method was chosen for its simplicity, availability of payment data, cost savings and reliability.




                                                          34
                                      SECTION IIIB
                   DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                               POLICIES AND PROCEDURES

Since 1991, the number of agencies for whom the liability is calculated increased. These additional agencies are
smaller in size than that of the agencies for whom the original model was developed. It is generally held that
historic extrapolation models work best with larger populations. As a result, the calculations from year to year
were more volatile than those for the original agencies, and preparing the estimates became increasingly
cumbersome. Therefore, during FY 2000, DOL engaged actuaries to create a new model.

The new model shares its fundamental theory with the old model; future benefit payments are predicted based
upon the pattern of historical payments. As before, in order to run the model, the DPPS imports the current
year's actual FECA payments by each chargeback agency (FECA Chargeback System tapes). This payment
data per agency is subdivided into incurred injury year cells to provide the extra dimension of the historic payment
pattern. The chargeback tapes (historic basis) are maintained by the FECA Program, which supplies the historic
data to DPPS annually. Both models included historical payments in constant dollars, inflation and discount
factors as derived from OMB economic forecasting packages in its calculations of future payments. Therefore,
both models share a sensitivity to economic assumptions.

However, the new model varies from the previous model. For instance, claims incurred but not reported (IBNR)
was excluded from the previous model in accordance with Appendix B - Liability Recognition and Measurement
Matrix of SFFAS 5. The new model recognizes IBNR, which enhances its comparability to private sector
insurance model. FASAB has concurred with its inclusion. Also, the previous model predicted future payments
by multiplying the most recent year's payments by decay rates derived from historical payments. In contrast, the
new model develops an estimate of total anticipated payments by injury year, subtracts cumulative payments to
date, and allocates the remaining payments to future years premised upon loss development factors.

In order to establish cumulative payments to date, the new model utilizes a backfilling technique, a casualty model
methodology. Because FECA makes payments on injuries incurred as far back as 1952, and the old model's
data base of payments begins in 1989, backfilling was necessary to complete the matrices of cost by injury to
payment year. The technique consists of extrapolating patterns from actual payments for the years included in
the data base, and developing reverse decay rates to predict what the costs should have been in the years prior
to the base of known payments.

In developing the backfilling factors, the model makes use of groupings of agencies. The groupings were
established based upon a claim duration study performed by a DOL economist. Most agencies were placed in
groups with a similar probability of a claim extending over a certain period of time. The agencies added since
1991, were included in the group whose probabilities approximated the average of all the agencies. The group
is both affected by and affects the agencies within it. For instance, smaller agencies are more affected than larger
agencies. Besides the development of the backfilling factors, the grouping affects the predicted loss development
factors. The loss development factors are a weighted combination of agency, group, and all-agency factors.

The new model includes extending the duration of the model until the estimated payments left to be paid expire.


                                                        35
                                       SECTION IIIB
                    DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                                POLICIES AND PROCEDURES

Chargeback System

DFEC is required to furnish to each agency and instrumentality, before August 15th of each year, a statement
or bill showing the total cost of benefits and other payments made during the period July 1 through June 30.
DFEC established the chargeback system to furnish these statements.

The chargeback system creates bills which are sent to each employing agency for benefits that have been paid
on the agency's behalf. The bills are for a fiscal year inclusive of benefits paid from July 1 through June 30. Each
agency is required to include in its annual budget estimates for the fiscal year beginning in the next calendar year,
a request for an appropriation for the amount of these benefits. These agencies are then required to deposit in
the Treasury, the amount appropriated for these benefits to the credit of the Fund within 30 days after the
appropriation is available.

If an agency is not dependent on an annual appropriation, then the funds are required to be remitted during the
first 15 days of October following the issuance of the bill.

The bills sent to agencies for the chargeback system contain identifying codes that indicate both the year being
billed and the year in which the bill is to be paid. Each bill sent out in fiscal year 2000 and due in fiscal year 2000
would be coded as follows: 99-XXX-00. The 99 indicates the year the bill is generated, the XXX indicates the
numerical sequence of the bill, and the 00 would indicate the year that the bill would be due and paid.




                                                          36
                                       SECTION IIIB
                    DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                                POLICIES AND PROCEDURES

Operational Offices

DFEC administers FECA through 12 district offices and a national headquarters located in Washington, D.C.
The District offices and the areas covered by each District office are:

                          Location of
        District District Office         States or Regions Covered by District Office
           1              Boston                 Connecticut, Maine, Massachusetts, New Hampshire,
                                                 Rhode Island, Vermont
            2            New York                New Jersey, New York, Puerto Rico, Virgin Islands
            3            Philadelphia            Delaware, Pennsylvania, West Virginia
            6            Jacksonville            Alabama, Florida, Georgia, Kentucky, Mississippi,
                                                 North Carolina, South Carolina, Tennessee
            9            Cleveland               Indiana, Michigan, Ohio
           10            Chicago                 Illinois, Minnesota, Wisconsin
           11            Kansas City             Iowa, Kansas, Missouri, Nebraska, all DOL employees
           12            Denver                  Colorado, Montana, North Dakota, South Dakota, Utah,
                                                 Wyoming
           13            San Francisco           Arizona, California, Guam, Hawaii, Nevada
           14            Seattle                 Alaska, Idaho, Oregon, Washington
           16            Dallas                  Arkansas, Louisiana, New Mexico, Oklahoma, Texas
           25            Washington, D.C.        District of Columbia, Maryland, Virginia,
                                                 and overseas/special claims
           50            National Office Branch of Hearings and Review

Subservicer

DFEC utilizes a subservicer, SunGard, to provide computer hardware and a communications network between
the national office, the District offices and the U.S. Treasury, to maintain a tape library and disk drive backup and
for other computer mainframe functions. SunGard’s control policies and procedures and related control
objectives were omitted from the description of Control Objectives, Tests of Policies and Procedures and
Operating Effectiveness contained in this report. Control Objectives, Tests of Policies and Procedures and
Operating Effectiveness included in this report include only the objectives that DFEC’s control policies and
procedures are intended to achieve.




                                                         37
                                      SECTION IIIB
                   DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                               POLICIES AND PROCEDURES

OVERVIEW OF CONTROL ENVIRONMENT

An organization’s control environment reflects the overall attitude, awareness and actions of management and
others concerning the importance of controls and the emphasis given to control in the organization’s policies and
procedures, methods, and organizational structure. The following is a description of the key policies and
procedures that are generally considered to be part of the control environment.

Organization and Management

OWCP is one of four agencies within ESA. DFEC is one of four divisions within OWCP.




                                                       38
                                    SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

DFEC has four branches:

1.       Branch of Regulations and Procedures - This branch assists in developing claims and benefit payment
         policies, regulations and procedures; prepares and maintains the program's manuals; plans and
         conducts studies of claims and benefit payment functions; and participates in training activities and
         accountability reviews of District offices.

2.       Branch of Automatic Data Processing (ADP) Coordination and Control - This branch provides ADP
         support services for the FECA program. It coordinates the overall ADP work of DFEC and provides
         policy direction for ADP systems activities.

3.       Branch of Technical Assistance - This branch develops materials for use by District offices and other
         Federal agencies to educate Federal employees in reporting injuries and claiming compensation under
         the FECA. They also hold workshops for compensation personnel in various Federal agencies and
         for groups of employee representatives.

4.       Branch of Hearings and Review - This branch is responsible for conducting hearings and reviews of
         the written record in FECA cases. Hearing Representatives issue decisions which sustain, reverse,
         modify, or remand cases to the OWCP District offices.




                                                    39
                                       SECTION IIIB
                    DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                                POLICIES AND PROCEDURES

Branch Operations

A Branch chief reports directly to the Deputy Director. The Director and Deputy Director coordinate the
operations of the 12 District offices.

District Offices

A District Director (DD) oversees the daily operations at each of the 12 District offices. The DD in each office
oversees the claims section and a Fiscal Officer who oversees the Fiscal Section.

The District offices serve the persons residing within their district. When an individual moves from one district
to another, the individual's case file and responsibility for monitoring the case is transferred to the district office
where the individual has moved, unless the case is for a claimant specified as a special employee. Cases specified
as special employee cases are always processed at District office 50.

The specific functions within the District offices are:

1.         Claims Functions. In each district office are two or more Supervisory Claims Examiners, who are
           responsible for the operation of individual claims units, and a number of Senior Claims Examiners and
           Claims Examiners (CE), who have primary responsibility for handling claims, including authorization
           of compensation and eligibility for medical benefits. Individuals at each level of authority from DD to
           CE have been delegated specific responsibilities for issuing decisions on claims.

2.         Fiscal Functions. Each District office usually has a Fiscal Officer and at least one Benefit Payment
           Clerk. Some District offices have a Bill Pay Supervisor as well. The unit is generally responsible for
           resolution of problems with medical bills, complex calculations of benefits and overpayments,
           adjustments to compensation and bill pay histories, changes in health benefits and life insurance
           coverage, and financial management records. In some District offices, fiscal personnel enter
           compensation payments into the electronic system.

3.         Medical Functions. Each District office usually has at least one District Medical Adviser (DMA) who
           works under contract to review individual cases, and some District offices have a District Medical
           Director (DMD) as well. Each District office also has a Medical Management Assistant, who
           arranges referrals to second opinion and referee specialists. Each District office also has a Staff
           Nurse, who is responsible for coordinating a number of field nurses who monitor claimant's medical
           progress and assist their efforts to return to work.

4.         Mail and File Functions. Personnel in this area open, sort, and place mail; set up case files, retire case
           records according to established schedules; and transfer case files in and out of the District office.


                                                          40
                                      SECTION IIIB
                   DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                               POLICIES AND PROCEDURES

5.         Vocational Rehabilitation Functions. Each District office has at least one Rehabilitation Specialist (RS)
           and usually a Rehabilitation Clerk. The RS manages a number of Rehabilitation Counselors, who
           work under contract with OWCP to help claimants obtain employment.



                                         FECA District Office

                                                   Office of the
                                                  District Director



                 Assistant                                      Branch of Operations
                 District                                             Support
                 Director



             Claims Sections         Mail & File Section           Fiscal Section      Medical Section




                                                                  Bill Pay Section




OVERVIEW OF TRANSACTION PROCESSING

Identification and Registration of the Recipient of FECA Benefits

Authorized recipients of FECA benefits are those individuals who meet all of five eligibility criteria. Injured
workers submit claim information to the district office which serves the geographical location in which the claimant
resides. Claims are processed by the district office using the Case Management File System (CMF).

The CMF uses a standard identification number of nine characters to identify each case file. This number is called
the case number. All recipients of FECA benefits must have a unique case number recorded in the CMF, some
individuals could have multiple case numbers if the individual has sustained more than one injury.

The CMF maintains an automated file with identification on all individuals who have filed claims with FECA.
These records contain data elements that identify the claimant, the mailing and/or location address for the
claimant, and additional injury information and case status information.

Benefit Payments

                                                           41
                                      SECTION IIIB
                   DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                               POLICIES AND PROCEDURES

FECA claimants may be entitled to compensation for injury and lost wages, schedule awards, death benefits and
payment of medical expenses related to the work-related injury. The payments for lost wages, schedule awards
and death benefits are processed through the Automated Compensation Payment System (ACPS), while the
payments for injury-related medical expenses are processed through the Bill Payment System (BPS). Each of
these systems support the Department of Labor's general ledger system via an automated interface.

The primary function of ACPS is to process the payment of weekly, monthly, and supplemental benefits to
claimants. The ACPS interfaces with the CMF to ensure that approved claims are supported by a valid case
number. District office personnel input compensation payment data worksheets into the ACPS. The inputs onto
the payment data worksheets are accumulated in batches in the ACPS and transmitted by the District office to
the national office every night. The mainframe computer, maintained by SunGard, runs automated calculations
to compute the payment schedule and transmits the schedule back to the District offices the next morning. The
District offices review the payment schedules and if the information is correct, no further action is required and
payments will be made during the next appropriate payment cycle.

Approved payments are stored in a temporary file for the duration of the appropriate compensation payment
cycle: Daily Roll (5 days), Death Benefits (28 days), or Disability (28 days). At the end of the cycle, the
mainframe runs automated programs to format the data to Treasury specifications, to update the compensation
payment history files for use in the chargeback system, and to send summarized information to the District office
Fund Control System. The specially formatted Treasury information is sent to Treasury via a secure modem over
a dedicated line for payment processing.

The primary function of the BPS is to process payments to medical service providers or reimbursements to
claimants for medical expenses incurred for the work-related injury. The national office has the responsibility of
compiling the BPS data on a nightly basis as it is transmitted from each District office. Medical bills containing
charges for other than appliances, supplies, services or treatment provided and billed for by nursing homes are
subject to a medical fee schedule. The mainframe will run a zip code check and a comparison check of the
amount to be paid to fee schedules in each geographical area. If the amount is in excess of the geographical fee
schedule, the system will limit the payment to the maximum amount in the fee range. A bill in which certain fields
are the same is identified by the system as a potential duplicate payment, excluded from payment and sent to a
bill resolver at the District office to determine if a duplicate payment exists.

Approved payments are stored in a temporary file for the duration of the bill payment cycle of 5 days. At the
end of the cycle, the mainframe runs programs that format the data to Treasury specifications, updates the bill
payment history files for use in the chargeback system, and sends summarized information to the District office
Fund Control System. The specially formatted Treasury information is sent to Treasury via secure modem over
a dedicated line for payment processing.

The following charts set forth an overview of transaction processing at DFEC:


                                                       42
                                           SECTION IIIB
                        DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                                    POLICIES AND PROCEDURES

Processing of Compensation Payments
Processing of Medical Payments


    P:\SHARE\DOL\99FECA\FLOWCHRT\97ACP2.AF3
    Monday, CA-7,
            JuneClaim
                  17,for1996
               Compensation is                                                               T-Cup access CMF to
                                                CA-7 is date
                                                                                             check for a valid case
    3:33 PM received in the                     stamped by           Data Entry Operator
                                                                                                    number
                    Mailroom                     mail clerks         keys dates into T-Cup




                                   Claims                                                         Case file is
                                                                    Claims Examiner
                                  Examiner                                                      pulled from file
                                                                    receives case file
                                 approves or                                                     room by file
                                                                      from mailroom
                                 denies claim                                                        clerks




                           Claims Examiners key
                          approved or denied status
                                 into ACPS


   Claim Denied                                    Claim Accepted



       Claimant is notified of                                                                  Payment is certified
                                      ACPS access CMF to              Payment is set up by                                         ACPS stores
        case determination                                                                         by a SrCE or                approved payments
                                        ensure case file                    a CE
                                                                                                    equivalent                     for overnight
                                        number is valid
                                                                                                                                 transmission to
                                                                                                                               National mainframe




                                                               District Office personnel        Main frame                  Mainframe receives
                      CE approves or does                        receives CP-40 and              transmits                   payment data and
                      not approve payment                       distributes to Claims         payment data to               calculates payments
                                                                       Examiners                district office                   schedule
                            schedule




     Not Approved
                                                Approved
     (Fatal Errors)



         Claims Examiner
                                              Approved                       Payments not                     Payment
                                           payments are                      changed are
        re-inputs case and                                                                                 information is
                                         submitted to Senior
           resubmits for                                                      considered                   transmitted to
                                          Claims Examiner
             processing
                                            for verification
                                                                               accepted                       Treasury




                                                                             43
                   SECTION IIIB
DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
            POLICIES AND PROCEDURES




                     44
                                       SECTION IIIB
                    DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                                POLICIES AND PROCEDURES

Computer-Generated Reports

BPS generates a summary report, generated on a weekly basis, that is a history of bill payments for the week.
This report can be utilized for investigative purposes as well as for confirming whether a particular bill has been
paid.

The ACPS generates a summary report on a daily basis which is a history of compensation payments. This
report can be utilized for investigative purposes as well as for confirming whether a particular claim has been paid.
The mainframe transmits updated ACPS History Files to the District offices where they are available for query
purposes for 6 months. The mainframe retains the history files for query purposes for 2 years before they are
archived.

Chargeback System

The ACPS and BPS system history files are combined on a quarterly and annual basis to create the FECA
Chargeback Report. The FECA Chargeback System (CBS) is a subsidiary of DOLAR$. CBS provides
methods for tracking accounts receivable - intra-governmental activity while maintaining all financial data centrally
in DOLAR$. The June 30 year end FECA Chargeback Report is used to annually bill Federal agencies for
payments made on their behalf for the period July 1 to June 30. The Office of Management and Planning
(OMAP) provides quarterly benefit summaries to Federal agencies based on the FECA CBS.

The On-line Payment and Collection System (OPAC) is utilized to facilitate the electronic billing between Federal
agencies through Treasury. OPAC's main responsibility is to process the SF-1081s. SF-1081 (Voucher and
Schedule of Withdrawals and Credits) is a form which authorizes the transfer of expenses or income from one
Federal agency's appropriation to another for services rendered. The receivables are tracked in an internally
maintained subsidiary ledger maintained by OMAP.

Third Party Settlements

An injury or death for which compensation is payable to a FECA claimant that is caused under circumstances
creating a legal liability on a person or persons other than the United States (a third party) to pay damages will
result in the case being classified as a third party case. Status codes are used to track the progress of third party
cases in the Case Management File System. OWCP usually requires the claimant to pursue legal action;
however, the United States can pursue action on its own by requiring the beneficiary to assign rights of action to
the United States.

A letter (CA-1045) is sent to a claimant by the claims examiner when initial injury reports indicate a potential third
party. The CA-1045 requests information about the injury, the third party and the actions taken by the claimant
in regards to pursuing a claim against the third party, including the hiring of an attorney.


                                                         45
                                       SECTION IIIB
                    DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                                POLICIES AND PROCEDURES

When the CE receives a reply to the CA-1045 (or does not receive a reply 30 days after the second request is
sent to the claimant) or obtains the name and address of the attorney representing the claimant, the case is usually
referred to a designated claims examiner (DCE).

A case may be closed as "minor" and not pursued if the claimant has an injury where the total medical bills,
compensation and time lost from work do not exceed or are expected not to exceed $1,000. Additionally, a
case may only be closed as "minor" if the claimant has not responded to the CA-1045, or has responded but is
not personally asserting a third party claim and has not retained an attorney.

The DCE refers the case to the appropriate DOL, Solicitor (SOL) in the following instances:
<        The case is not minor and advice is received that the claimant is negotiating a settlement.
<        Advice is received that the claimant has retained an attorney to handle the third party action,
         regardless of the amount of disbursements.
<        The case is not minor and the claimant refuses to pursue the third party claim or does not reply to the
         CA-1045.
<        The third party case involves a death claim, a permanent disability, Job Corps, Peace Corps, VISTA,
         an injury occurring outside the United States or Canada, a common carrier as the potential defendant,
         malpractice, product liability or an injury to more than one employee.

Once referred to SOL, the DCE performs certain actions to ensure that the case is properly tracked while at
SOL. For instance, after the initial referral, an updated disbursement statement is furnished to the SOL within
5 working days of receipt of the request. It is essential that initiation of, termination of, or changes in periodic
roll payments be reported to the SOL immediately. Additionally, the DCE requests a status report from the SOL
at 6-month intervals.

When a settlement is reached in a third party case, the DCE prepares a Form CA-164 which is a summary of
all disbursements made to the claimant for compensation payments and to medical providers on the claimants
behalf, and forwards it to the fiscal section. If an amount owed from the claimant is received by OWCP, the
amount is credited against the ACPS and BPS, as appropriate. By recording the amount in the ACPS and BPS,
the proper employing agency is credited with the amounts recovered from third party settlements.

If the full amount of the third party refund is not received from the claimant, an accounts receivable balance is set
up for the amount still due. If the amount recovered exceeds the amount already paid by OWCP to the claimant
for compensation and medical benefits, then the excess amount is recorded and tracked in the case file to prohibit
any additional benefits from being paid to the claimant until the amount of eligible benefits to the claimant exceeds
the excess amount.




                                                         46
                                      SECTION IIIB
                   DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                               POLICIES AND PROCEDURES

OVERVIEW OF COMPUTER INFORMATION SYSTEMS

The computerized accounting system used by the Federal Employee's Compensation Special Benefit Fund
maintains all of the data for each of the claimants applying for FECA benefits. The Federal Employees'
Compensation Systems (FECS) is the electronic data processing system for FECA benefits. This computer
system is comprised of the following five subsystems:

<          Automated Compensation Payment System
<          Medical Bill Processing System
<          Case Management File
<          Debt Management System
<          Chargeback System

The FECS provides authorized users with on-line access to the various subsystems for file maintenance and
information purposes. Access to the FECS through computer terminals located in both the national and 12
District offices permits authorized users to perform a variety of functions, such as query, add, and update claims
data, track claims and overpayments, calculate retroactive benefit payments and enroll approved claimants for
benefits on the FECS.

In addition to storing information relevant to claims adjudication, benefit entitlement and payment status, the
FECS generates reports primarily used by management in administering the FECA Program. The system also
processes payments for covered medical expenses and monthly and supplemental benefit payments to or on
behalf of program beneficiaries.

Access to the FECS is limited to only certain employees, and their degree of access is based upon the user's
function within the program. The FECA EDP security officer within the Branch of ADP Coordination and
Control is responsible for assigning passwords and other procedures required to permit access to the FECS at
the national office; District Systems Managers are responsible for assigning passwords and other procedures
required to permit access to the FECS at the District office level. Controls to restrict access to FECS to
authorized personnel include the following (national and district office level):

<          A security briefing is given for each person having access to the system.
<          Access and an access profile for authorized users are established through a security software package
           (Access Control Facility).
<          Computer Information Control System establishes terminal access to the host computer.
<          Log on attempts are restricted to three attempts.
<          An audit trail report of unauthorized attempts to access the system is available.
<          Terminals are secured in locked rooms at the end of the work day.
<          Written procedures exist for both physical hardware and software security.


                                                       47
                   SECTION IIIB
DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
            POLICIES AND PROCEDURES




                     48
                                      SECTION IIIB
                   DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                               POLICIES AND PROCEDURES

Organization and Administration

A System Administrator is responsible for overseeing all the data processing activity of FECS. DFEC employs
approximately 7 individuals within the Branch of ADP Coordination and Control and has contracts with outside
computer consulting firms, Computer Data System, Inc. (CDSI), and Viatech through which approximately 30
individuals work with DFEC. CDSI and Viatech provide software development and maintenance for DFEC.

At each District office, a System Manager is responsible for overseeing all the data processing activity performed
at the district level (including user access). The System Managers are under the supervision of the Division of
Information Technology Management and Services (DITMS). DITMS includes both Federal Government
employees and outside contractors. The System Managers have access to system data for report generation and
submission purposes. The System Managers can only extract information from the database and cannot change
any of the source codes (i.e., programs).

The function of DITMS is to maintain computer networks, operating systems, and computer hardware systems
for the DOL environment. DITMS installs all of the data processing applications and modifications developed
by DFEC. In addition, DITMS is responsible for the management controls surrounding the host mainframe
application of FECS, such as assignment and maintenance of system support personnel to the mainframe and
access violations monitoring.

Operations

The Office of the Assistant Secretary for Administration and Management contracted with SunGard Computer
Services, Inc. (SunGard), for computer mainframe time-sharing services. SunGard provides computer hardware
and a communications network between the national office, the district offices and the U. S. Treasury. In
addition, SunGard maintains a tape library and disk drive backup. The SunGard database includes all medical
and disability compensation payment information since 1978.

There are four levels of hardware, software, communications, supplies and facility resources for DFEC: SunGard
mainframe, national office Sequent minicomputers, district office Sequent minicomputers and the user and
programmer development terminal personal computers with authorized access into the mainframe or
minicomputer system.

There are formal operator and user manuals for some components of the system. There are extensive input edit
checks in the software. Errors are automatically rejected by the system and queued for review by the
appropriate individuals. Reports that track the errors, including aging information, are routinely produced.




                                                       49
                                       SECTION IIIB
                    DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                                POLICIES AND PROCEDURES

Documentation

Hardware: DITMS maintains an extensive list of the hardware used in the FECS processing at all sites.

Software: DITMS maintains an extensive list of the third party software used in the FECS processing which
includes operating system software, compilers and utilities. DFEC is responsible for the maintenance of FECS
application software. All the hardware and software modifications are controlled by DOL. OWCP requests
the modifications, DFEC designs and tests the modification, and DITMS installs the modifications.

Acceptance testing is performed by DOL using an environment that closely copies the development environment.
The procedures used for the acceptance testing varies according to subsystem. No formal documentation of the
acceptance testing is maintained. However, DFEC maintains a history of all prior source code versions which
provides evidence of all modifications of the source code.

The System Administrator has an assistant responsible for computer design development, programming and
analysis. Another assistant of the System Administrator is responsible for evaluating the testing of all new and
modified source codes (programming) and the distribution to the district offices. Additionally, this assistant
supervises all staff programmers.

Anti-Virus Control

The FECS currently runs a variety of anti-virus or virus checking routines. Each file server runs an anti-virus
module resident on the server. The local area networks (LANs) are "dustless" LANs. When disks are scanned
(e.g., for the installation of new software), anti-virus software is used to scan disks to identify and remove viruses.
Personal computers are attached to LANs in OWCP District offices utilize hard drives in addition to the central
file server. All of the personal computers utilize an anti-virus software and can be run in a scheduled or
unscheduled ad hoc mode.

Subservicer

DFEC utilizes a subservicer, SunGard, to provide computer hardware and a communications network between
the national office, the District offices and the U.S. Treasury, to maintain a tape library and disk drive backup and
for other computer mainframe functions.




                                                          50
                                      SECTION IIIB
                   DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                               POLICIES AND PROCEDURES

CONTROL OBJECTIVES AND RELATED POLICIES AND PROCEDURES

DFEC's control objectives and related policies and procedures are included in Section IIIC of this report,
"Information Provided by the Service Auditor," to eliminate the redundancy that would result from listing them
here. Although the control objectives and related policies and procedures are included in Section IIIC, they are,
nevertheless, an integral part of DFEC's description of policies and procedures.

USER CONTROL CONSIDERATIONS

DFEC's processing of transactions and the control policies and procedures over the processing of transactions
were designed with the assumption that certain internal control policies and procedures should be in operation
at user organizations to complement the control policies and procedures at DFEC. User auditors should
determine whether user organizations have established internal control policies and procedures to ensure that:

C          Employing agencies understand their responsibilities under FECA.
C          Employing agencies provide injured employees with accurate and appropriate information regarding
           injuries covered under FECA, including the employees' rights and obligations and claim forms.
C          Employing agencies timely and accurately report all work-related injuries and deaths to DFEC via the
           injury and death reporting forms such as the CA-1, CA-2, and CA-5, once completed by injured
           employee or claimant in the case of death. Supervisors should encourage persons witnessing injuries
           to record and report what was witnessed to DFEC.
C          Employing agencies provide complete and accurate information regarding a claimant’s rate of pay,
           hours worked, leave taken, and continuation of pay to DFEC.
C          Employing agencies promptly controvert questionable claims.
C          Employing agencies monitor the medical status of injured employees to be aware of what work the
           injured employee is capable of to enable the employing agency to provide additional information on
           the requirements of a position, or modified position, when applicable.
C          Employing agencies assist DFEC in returning employees to work by establishing or identifying
           positions, either modified or light-duty, to return the injured employee to work as early as possible.
           The Employing agency also needs to inform DFEC directly of the positions available.
C          Employing agencies review the chargeback coding notification (postcard) sent by DFEC when an
           injury report is received to ensure the individual will be charged to the proper agency and department.
C          Employing agencies review quarterly chargeback billings to ensure that each injured employee charged
           to their department and agency are employees or former employees of the agency, and that the
           amounts charged for compensation costs appear reasonable in light of the injured employee's
           compensation and the date of injury.




                                                       51
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR

This report is intended to provide users of the FECA Special Benefit Fund with information about the control
policies and procedures at the DFEC that may affect the processing of user organizations' transactions, general
computer controls and also to provide users with information about the operating effectiveness of the policies
and procedures that were tested. This report, when combined with an understanding and assessment of the
internal control policies and procedures at user organizations, is intended to assist user auditors in (1) planning
the audit of the user organizations' financial statements and (2) assessing control risk for assertions in user
organizations' financial statements that may be affected by policies and procedures at DFEC.

Our testing of DFEC's internal control policies and procedures was restricted to the control objectives and the
related policies and procedures listed in this section of the report and was not extended to procedures described
in Section IIIB but not included in this section or to procedures that may be in effect at user organizations. It is
each user auditor's responsibility to evaluate this information in relation to the internal control policies and
procedures in place at each user organization. If certain complementary controls are not in place at user
organizations, DFEC's internal control policies and procedures may not compensate for such weaknesses.

TESTS OF CONTROL ENVIRONMENT ELEMENTS

The control environment represents the collective effect of various elements in establishing, enhancing or mitigating
the effectiveness of specific policies and procedures. In addition to tests of operating effectiveness of the policies
and procedures listed in this section of this report, our procedures also included tests of and consideration of the
relevant elements of the DFEC's control environment including:

C          DFEC's organizational structure and the segregation of duties
C          Management control methods
C          Management policies and procedures

Such tests included inquiry of appropriate management, supervisory, and staff personnel; inspection of DFEC's
documents and records; observation of DFEC's activities and operations; and a limited review and evaluation
of SunGard's, the subservicer, most recent SAS 70 report, issued for the period from
October 1, 1998 to September 30, 1999. The results of these tests were considered in planning the nature,
timing, and extent of our tests of the specified control policies and procedures related to the control objectives
described within this report.

SAMPLING METHODOLOGY

To facilitate the testing of transaction processing controls, we developed a sampling plan as outlined below.

We performed tests on a sample of compensation for lost wages, schedule awards, death benefits and medical
benefit payments paid during the period October 1, 1999 to May 31, 2000, at 5 of 12 District offices. The
sample design involved a two stage process.


                                                         52
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR

The first stage in our sample design was the selection of district offices. District offices were randomly selected
by first forming two strata of the districts and then taking all the districts from the first strata, and selecting two
districts from the second strata. This procedure resulted in the selection of five district offices. The 5 district
offices comprised approximately $863 million of the $1.398 billion or 61.8 percent, of FECA payments during
the 8 month period ended May 31, 2000.

The second stage of the sample design was the selection of sampling units. The sampling units were a single
medical payment or total compensation payments to a case number. The universe of the sample districts was
stratified into 15 strata for the compensation payments and into 11 strata for the medical payments. The sample
size was determined for each of the 15 strata for compensation and 11 strata for the medical payments using the
following parameters:

C          The total number of items and dollar value of the strata universe

C          The estimated variance within each strata

C          A 95% confidence level (5% risk of incorrect acceptance)

C          A variable sampling precision (2.5% to 7%) of the point estimate

C          Materiality and tolerable error as defined for FECA benefit payments

Using statistical formulas, these parameters yielded a total sample of 482 items. Of the total sample, 217 were
medical payments and 265 were compensation payments. The sample items were then randomly selected.

Our detailed substantive testing was performed at the following district offices with the following number of items
tested:
                                                                                  Number of
                           District Office                                      Statistical Items
                           New York                                                     98
                           Jacksonville                                                 98
                           Kansas City                                                  94
                           San Francisco                                              103
                           Washington, D.C.                                             89
                           Total                                                      482

Our testing at the district offices consisted of control tests in the following categories:

               Case Creation
               Initial Eligibility
               File Maintenance

                                                          53
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR

              Continuing Eligibility (Medical Evidence and Earnings Information)
              Payment Processing
              Schedule Awards
              Death Benefits
              Medical Bill Payment Processing
              Third Party Settlements

The number of sample items for control tests was statistically selected based on the sampling plan detailed above.
The number of sample items tested was determined based on the number of items to which the test of controls
applied. The control tests would not be applicable to some sample items due to factors such as the age of the
injury.

Additional testing was performed on items which were selected in a non-statistical method.

Initial Eligibility Cases

Audit queries were generated which determined all of the cases in which claimants were injured and began
receiving compensation during the sampling period of October 1, 1999 to May 31, 2000. From a population of
1,262 initial eligibility cases in the 5 district offices tested, a random sample of 75 cases, 15 cases per district
office, was selected. We reviewed the case files to ensure that the proper procedures had been followed in
determining whether or not the claimants were eligible to receive benefit payments and whether benefit payments
were paid at the correct amount.

Multiple Claim Payments

Audit queries were generated which compared certain elements of each compensation payment made during the
period October 1, 1999 through May 31, 2000. The query compared case files in which the social security
number was the same for multiple case files. This situation would normally occur when an employee has suffered
more than one injury, as a separate case number is assigned for each injury. We analyzed the payments to ensure
that a claimant was not receiving excessive or overlapping compensation. We removed from the population of
1,789 multiple claim payments, the cases tested in previous years which resulted in no errors, resulting in 132
multiple claim compensation payment items to be tested.

Gross Override

Audit queries were generated which determined all cases on which the amount of compensation to be paid was
manually overridden from what the ACPS calculated the payment should be. We selected instances where the
amount paid as a result of the override was more than the amount that the ACPS had calculated should be paid.
We then randomly selected 29 cases from a population of 193 cases in the district offices in which test work was
to be performed.


                                                        54
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR


Third Party Settlements

Audit queries were generated which determined all claimants that had a third party status indicator in the CMF.
We then randomly selected 100 cases from a population of 1,452 cases with third party indicators, active within
the past year, in the district offices in which test work was to be performed.

Summary of Non-Statistical Sample Items

                                 # of Multiple        # of Gross     # of Third    Total
           District Office Claim Payments      Override Cases    Party Cases       Sample
           New York                        35                  0               20                  55
           Jacksonville                    40                  8                20                 68
           Kansas City                      9                  4                20                 33
           San Francisco                   27                  7                20                 54
           Washington, D.C.                21                 10                20                 51
            Total                        132                  29              100                 261


CONTROL OBJECTIVES, RELATED POLICIES AND PROCEDURES, AND TESTS OF
OPERATING EFFECTIVENESS

This section presents the following information provided by the DFEC:

C      The control objectives specified by management of DFEC.
C      The policies and procedures established and specified by DFEC to achieve the specified control
       objectives.

Also included in this section is the following information provided by the service auditor:

C      A description of the testing performed by the service auditor to determine whether DFEC's control
       policies and procedures were operating with sufficient effectiveness to achieve stated control objectives.

C      The results of the service auditors' tests of operating effectiveness.




                                                       55
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           GENERAL COMPUTER CONTROLS

Control Objective: General Computer Controls - Control policies and procedures provide reasonable
assurance that DFEC has generally established computer controls over entity-wide security, access controls,
application software development and change controls, segregation of duties, systems software, and service
continuity.

Description of Policies and Procedures

The computerized accounting system used by the Federal Employees’ Compensation Act Special Benefit Fund
maintains all of the data for each of the claimants applying for FECA benefits. The Federal Employees’
Compensation System (FECS) is the electronic data processing system for FECA benefits. This computer
system is comprised of the following five subsystems:

<      Automated Compensation Payment System
<      Medical Bill Processing System
<      Case Management File
<      Debt Management System
<      Chargeback System

The Office of the Assistant Secretary for Administration and Management contracted with SunGard Computer
Services, Inc. (SunGard), for computer mainframe time-sharing services. SunGard provides computer hardware
and a communications network between the national office, the district offices, and the U.S. Treasury. SunGard
runs the programs and software applications for FECS.

FECS provides authorized users with on-line access to the various subsystems for file maintenance and
information purposes. Access to FECS through computer terminals located in both the national and 12 district
offices permit authorized users to perform a variety of functions, such as query, add, and update claims data,
track claims and overpayments, calculate retroactive benefit payments, and enroll approved claimants for benefits
on FECS.

In addition to storing information relevant to claims adjudication, benefit entitlement, and payment status, FECS
generates reports primarily used by management in administering the FECA Program. The system also processes
payments for covered medical expenses and monthly and supplemental benefit payments to and on behalf of
program beneficiaries.

Access to FECS is limited to only certain employees, and their degree of access is based upon the user's function
within the program. The DFEC EDP security officer within the Branch of ADP Coordination and Control is
responsible for assigning passwords and other procedures required to permit access to FECS at the national
office; District Systems Managers are responsible for assigning passwords and other procedures required to
permit access to FECS at the district office level. Controls to restrict access to FECS to authorized personnel
include the following (national and district office level):

                                                       56
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           GENERAL COMPUTER CONTROLS


<      A security briefing is given for each person having access to the system;
<      Access and an access profile for authorized users are established through a security software package
       (Access Control Facility);
<      Computer Information Control System establishes terminal access to the host computer;
<      Log on attempts are restricted to three attempts;
<      An audit trail report of unauthorized attempts to access the system is available;
<      Terminals are secured in locked rooms at the end of the work day; and
<      Written procedures exist for both physical hardware and software security.

Organization and Administration

A System Administrator is responsible for overseeing all the data processing activity of FECS. DFEC employs
approximately 17 individuals within the Branch of ADP Coordination and Control and has contracts with outside
computer consulting firms, Computer Data System, Inc. (CDSI), and Viatech through which approximately 30
individuals work with DFEC. CDSI and Viatech are software development and maintenance contractors for
DFEC.

At each district office, a System Manager is responsible for overseeing all the data processing activity performed
at the district level (including user access). The System Managers are under the supervision of the Division of
Information Technology Management and Services (DITMS). DITMS includes both Federal Government
employees and outside contractors. The System Managers have access to system data for report generation and
submission purposes. The System Managers can only extract information from the database and cannot change
any of the source codes (i.e., programs).

The function of DITMS is to maintain computer networks, operating systems, and computer hardware systems
for the DOL environment. DITMS installs all of the data processing applications and modifications developed
by DFEC. In addition, DITMS is responsible for the management controls surrounding the host mainframe
application of FECS, such as assignment and maintenance of system support personnel to the mainframe and
access violations monitoring.

Operations

The Office of the Assistant Secretary for Administration and Management contracted with SunGard Computer
Services, Inc. (SunGard), for computer mainframe time-sharing services. SunGard provides computer hardware
and a communications network between the national office, the district offices, and the U.S. Treasury. In
addition, SunGard maintains a tape library and disk drive backup. SunGard runs programs and software
applications for FECA. The SunGard database includes all medical and disability compensation payment
information since 1978.

                                                       57
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS


There are four levels of hardware, software, communications, supplies, and facility resources for DFEC:
SunGard mainframe, National Office Sequent minicomputers, District Office Sequent minicomputers, and the user
and programmer development terminal personal computers with authorized access into the mainframe or
minicomputer system.

Documentation

Hardware: DITMS maintains an extensive list of the hardware used in the FECS processing at all sites.

Software: DITMS maintains an extensive list of the third party software used in the FECS processing which
includes operating system software, compilers, and utilities. DFEC is responsible for the maintenance of FECS
application software. All the hardware and software modifications are controlled by DOL. OWCP requests
the modifications; DFEC designs and tests the modifications; and DITMS installs the modifications.

Acceptance testing is performed by DOL using an environment that closely copies the development environment.
The procedures used for the acceptance testing varies according to the subsystem. No formal documentation
of the acceptance testing is maintained. However, DFEC maintains a history of all prior source code versions
which provides evidence of all modifications of the source code.

The System Administrator has an assistant responsible for computer design development, programming, and
analysis. Another assistant of the System Administrator is responsible for evaluating the testing of all new and
modified source codes (programming) and the distribution to the district offices. Additionally, this assistant
supervises all staff programmers.

Anti-Virus Control

The FECS currently runs a variety of anti-virus or virus checking routines. Each file server runs an anti-virus
module resident on the server. The local area networks (LANs) are "dustless" LANs. When disks are scanned
(e.g., for the installation of new software), anti-virus software is used to scan disks to identify and remove viruses.
Personal computers attached to LANs in OWCP district offices utilize hard drives in addition to the central file
server. All of the personal computers utilize an anti-virus software and can be run in a scheduled or unscheduled
ad hoc mode.

Subservicer

DFEC utilizes a subservicer, SunGard, to provide computer hardware and a communications network between
the national office, the district offices, and the U.S. Treasury, to maintain a tape library and disk drive backup
and for other computer mainframe functions.


                                                          58
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         GENERAL COMPUTER CONTROLS




Tests of Operating Effectiveness

Entity-wide Security

•     Reviewed risk assessment policies, the most high-level risk assessment, and the objectivity of personnel
      who perform and review the assessment.

•     Reviewed the security plan and determined whether the plan covers the topics prescribed by OMB
      Circular A-130.

•     Reviewed any related documentation which indicated that the security plan has been reviewed, updated,
      and is current.

•     Reviewed the entity’s organization chart, other pertinent organization charts, and job descriptions.
•     Reviewed the security plan to determine who owns computer-related resources and who is responsible
      for managing access to computer resources.

•     Interviewed the security manager and security management staff to determine whether they are aware
      of security-related responsibilities and expected behaviors.

•     Reviewed documentation supporting or evaluating the security awareness program, memos, electronic
      mail files, or other policy distribution mechanisms, and personnel files to test whether security awareness
      statements are current.

•     Interviewed data owners and system users to determine what training they have received and if they are
      aware of their security-related responsibilities.

•     Interviewed the security manager, response team members, and system users to determine whether an
      incident response capability has been implemented.

•     Reviewed documentation supporting incident handling activities.

•     Reviewed hiring policies, reinvestigation policies, policies on confidentiality or security agreements,
      vacation policies, job rotation policies, staff assignment records, and other pertinent policies and
      procedures.


                                                      59
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         GENERAL COMPUTER CONTROLS

•     Reviewed job descriptions for security management personnel and a selection of other personnel.

•     Reviewed training program documentation, training records, and other related documentation.

•     Reviewed reports resulting from recent assessments (including the most recent FMFIA report), written
      authorizations or accreditation statements, and documentation related to corrective actions.
•     Identified and reviewed the last independent review or audit.

•     Reviewed the status of prior year audit recommendations to determine if implemented corrective actions
      have been tested.

•     Reviewed the SunGard SAS 70 report to determine whether adequate coverage was given to the control
      environment and to determine the impact if any control weaknesses on the FECS processing environment:
      • A security plan is documented, approved, and kept current;
      • A security management structure has been established;
      • Information security responsibilities are clearly assigned;
      • An incident response capability has been implemented;
      • Hiring, transfer, termination, and performance policies address security;
      • Employees have adequate training and expertise;

Access Controls

•     Identified, reviewed, and compared policies and procedures regarding resource classifications and related
      criteria to risk assessments; interviewed resource owners; and discussed discrepancies in resource
      classifications with appropriate officials.

•     Reviewed written policies and procedures regarding access authorization, authorization and justification
      for a selection of users with dial-up access, a selection of recent profile changes, and activity logs.

•     Interviewed data owners to determine disposition and sharing of data and examined standard approval
      forms, documents authorizing file sharing, and file sharing agreements.

•     Reviewed, observed, or performed the following, either at the DITMS Data Center or as part of the
      SunGard SAS 70 report, to determine whether physical safeguards have been established and are
      commensurate with the risks of physical damage or access:
      • a diagram and walk through of the physical layout of the computer, telecommunications, and cooling
         system facilities;
      • risk analysis;
      • lists of individuals authorized access to sensitive areas;
      • visitor entry policies, procedures, and logs;

                                                     60
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           GENERAL COMPUTER CONTROLS

       •   entries to and exits from facilities during and after normal business hours;
       •   utilities access paths;
       •   access path diagrams;
       •   procedures for the removal and return of storage media from and to the library;
       •   a selection of some returns and withdrawals from the log to verify physical existence;
       •   practices for safeguarding keys and other devices;
       •   written emergency procedures;
       •   documentation supporting prior fire drills;
       •   documentation on and logs of entry code changes;
       •   pertinent policies and procedures regarding passwords, tokens, or other devices used to identify and
           authenticate users, the password file, security software password parameters, users keying in
           passwords, a system-generated list of current passwords, security logs;
       •   interview with security administrators and system users regarding logical controls over data files and
           software programs;
       •   pertinent polices and procedures regarding logical controls over databases, interview with the
           database administrator, DBMS and DD security parameters, and security system parameters;
       •   pertinent policies and procedures regarding logical controls over telecommunications access,
           parameters set by communications software or teleprocessing monitors, interview with
           telecommunications management staff and users, and the opening screen seen by telecommunication
           system users;
       •   evaluation of cryptographic tools;
       •   written procedures regarding sanitation of equipment and media prior to disposal or reuse, interview
           with personnel responsible for clearing equipment and media, examination of documentation related
           to the clearing of data and software;
       •   security software settings to identify types of activity logged, pertinent policies and procedures
           regarding monitoring of actual or attempted access, security violation reports, and documentation
           showing reviews of questionable activities; and
       •   pertinent policies and procedures and interview with appropriate personnel regarding the investigation
           and appropriate action of suspicious activity.

Application Software Development and Change Control

•      Reviewed the status of the System Development Life Cycle (SDLC) methodology and system
       documentation to determine whether the SDLC was implemented.

System Software

Reviewed the SunGard SAS 70 report to determine whether the following system software controls exist at
SunGard:
•     Access authorizations are appropriately limited;

                                                      61
                              SECTION IIIC
               INFORMATION PROVIDED BY THE SERVICE AUDITOR
                      GENERAL COMPUTER CONTROLS

•   Inappropriate or unusual activity is investigated and appropriate actions taken;
•   System software changes are authorized, tested, and approved before implementation; and
•   Installation of system software is documented and reviewed.




                                                62
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS

Segregation of Duties

Reviewed the SunGard SAS 70 report to determine whether the following segregation of duties’ controls exist
at SunGard:
•      Employees understand their duties and responsibilities;
•      Physical and logical access controls have been established;
•      Formal procedures guide personnel in performing their duties; and
•      Active supervision and review are provided for all personnel.

Service Continuity

Reviewed the SunGard SAS 70 report to determine whether the following service continuity controls exist at
SunGard:
•     Data and program backup procedures have been implemented;
•     Adequate environmental controls have been implemented;
•     Effective hardware maintenance, problem management, and change management help prevent
      unexpected interruptions;
•     An up-to-date contingency plan is documented;
•     Backup procedures are periodically tested;
•     Test results are analyzed and contingency plans are adjusted accordingly; and
•     Arrangements have been made for alternate data processing and telecommunications facilities.

Results of Tests

Entity-wide Security

ESA, of which DFEC is a division, has not completed and approved a risk assessment that considers data
sensitivity and integrity, the range of risks to the entity’s systems and data, and resource classifications over its
general support systems and major applications. Although risk assessments have been performed and
documented for the general support systems and major applications, they are in the process of being reviewed
and approved by the CIO. Classifications and criteria have been established and communicated to the resource
owners for:
•        General Support Systems
•        The Major Application FECS
However, classification of resources were not based upon risk assessments for the FECS major application.

ESA, of which DFEC is a division, has not formally approved an entity-wide security plan for its general support
systems and major applications. They are awaiting approval from the CIO on security plans that have been
established and documented for ESA’s general support systems. A major applications security plan is currently


                                                         63
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS

under development for the FECS. Although policies and procedures for certain security activities have been
established, full implementation is not expected until funding is received for FY 2001.

ESA, of which DFEC is a division, has not formally established a security management structure with clearly
assigned security responsibilities over ESA and its various programs. Organizational charts do not exist which
clearly illustrate the individuals responsible for enforcing ESA’s entity-wide security program and their levels of
reporting responsibility within ESA and the Department of Labor. However, ESA recently finalized and
approved the ESA general support systems security plan. ESA’s major applications system security plans are
in development.

ESA, of which DFEC is a division, has not effectively implemented security controls related to personnel policies
and procedures. The following security-related personnel policies have not been adequately implemented:
•      Background checks are not performed on prospective employees for critical/sensitive job functions;
•      Periodic reinvestigations are not performed for employees in critical/sensitive job functions;
•      Confidentiality or security agreements are not required for employees and contractors assigned to work
       with confidential information;
•      Termination and transfer policies and procedures do not exist, including exit interview procedures, return
       policies for property, keys, identification cards, passes, etc., policies for escorting terminated employees
       out of the facility, and identifying the period during which nondisclosure requirements remain in effect;
•      Skill needs are not accurately identified and included in job descriptions;
•      A training program has not been developed; and
•      Employee training and professional development are not documented and monitored.

Although policies and procedures have been established in the security plan for certain security activities, funding
to fully implement these is not expected until FY 2001; thus, all security-related personnel policies and
procedures have not been fully implemented.

The subservicer level report, SunGard’s SAS 70, sufficiently specifies that the following entity-wide controls exist
at SunGard:
•      An information systems security manager has been appointed at an overall level and at appropriate
       subordinate levels.

Access Controls

Controls over the authorizing and periodic monitoring of users having logical access to ESA’s FECS mainframe
application require improvement. Policies and procedures do not exist for the authorization, modification,
deletion/termination, periodic recertification of user access, and assignment of access via dial-in methods. The
following weaknesses were identified:
•       Standard access request forms for both standard and dial-in access are not used to circumvent users’
        logical access;

                                                        64
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           GENERAL COMPUTER CONTROLS

•       Periodic reviews of user accounts on the system are not conducted;
•       User IDs were not assigned to specific individuals; rather group IDs were established by job function and
        shared by several individuals, which included the sharing of passwords that do not expire. As a result,
        several employees had been assigned access to multiple IDs, and terminated employees by default have
        maintained their access;
•       Individuals have the ability to dial-in to the mainframe who do not have proper justification;
•       The supervisor of the mainframe operations group knows the user ID and password for each of the 29
        accounts; and
•       IDs were not assigned to any specific user (or group), were labeled “unused,” and are considered
        inactive and inappropriate.
However, management is in the process of improving the controls over authorizing and monitoring logical access
to the mainframe by developing a major applications systems security plan for FECS that will cover the entire
security and operating environment that includes both the mainframe and client server platforms.

The following weaknesses were noted in ESA’s security monitoring controls over the mainframe environment:
•       ESA does not request or review access violation reports generated by SunGard; and
•       ESA does not periodically monitor changes to user profiles maintained by SunGard.
However, management is currently improving the controls over authorizing and monitoring logical access to the
mainframe by developing a major applications systems security plan for the FECS, which will cover the entire
security and operating environment that includes both the mainframe and client server platforms.

Improvement is needed in controls over the authorizing and periodic security monitoring of users having logical
access to ESA’s UNIX environment. DITMS management is in the process of improving the controls over
authorizing and monitoring logical access to the UNIX environment. Policies and procedures have been
developed for use of access request forms for authorizing physical access and for handling defective and/or
unused cards.

The subservicer level report, SunGard’s SAS 70, sufficiently specifies that the following access controls exist at
SunGard:
•      Access authorizations are documented on standard forms and maintained on file, approved by senior
       managers, and securely transferred to security managers;
•      The number of users who can dial into the system from remote locations is limited and justification for
       such access is documented and approved by owners;
•      Security is notified immediately when system users are terminated or transferred;
•      Facilities housing sensitive and critical resources have been identified, and all significant threats to the
       physical well-being of sensitive and critical resources have been identified and related risks determined;
•      Keys or other access are needed to enter the computer room and tape/media library;
•      All deposits and withdrawals of tapes and other storage media from the library are authorized and logged;
•      Visitors are controlled;


                                                        65
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           GENERAL COMPUTER CONTROLS

•      Passwords are unique, controlled by the assigned user, changed periodically, not displayed when entered,
       at least six alphanumeric characters in length, and prohibited from reuse for at least six generations;
•      Attempts to log on with invalid passwords are limited to 3 attempts;
•      Password files are encrypted;
•      Audit trails are maintained; and
•      Actual or attempted unauthorized, unusual, or sensitive access is monitored.

Application Software Development and Change Control

The System Development methodology and the Configuration Change Management procedures have not been
formally documented and implemented for FECA. Also, documentation of the FECS technical programming and
user operations is inadequate.

Library management software installed on the mainframe used to process the FECS application is not being used
to manage or control the FECS source code.

The FECS program development staff has access to production and test environments, and mainframe
programmers may move changes to the production environment.

The subservicer level report, SunGard’s SAS 70, sufficiently specifies that access to the operating system
production libraries at SunGard are restricted.

System Software

The subservicer level report, SunGard’s SAS 70, sufficiently specifies that the following system software controls
exist at SunGard:
•        Policies and procedures for restricting access to systems software exist and are up-to-date;
•        Documentation showing justification and management approval for access to system software is kept on
         file;
•        Inappropriate or unusual activity is investigated;
•        System software changes are authorized, tested, and approved before implementation;
•        Installation of system software is scheduled to minimize the impact on data processing and advance notice
         is given to system users;
•        Installation of all system software is logged to establish an audit trail and reviewed by data center
         management;
•        Vendor-supplied system software is still supported by the vendor; and
•        System software is current and has current and complete documentation.
Segregation of Duties



                                                       66
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           GENERAL COMPUTER CONTROLS

The subservicer level report, SunGard’s SAS 70, sufficiently specifies that the following segregation of duties’
controls exist at SunGard:
•       Day-to-day operating procedures for the data center are adequately documented and prohibited actions
        are identified;
•       Physical and logical access controls help restrict employees to authorized actions based upon
        organizational and individual job responsibilities;
•       Detailed, written instructions exist and are followed for the performance of work;
•       Operator instruction manuals provide guidance on system operation;
•       Application run manuals provide instruction on operating specific applications;
•       Operator activities on the computer system are recorded; and
•       System startup is monitored and performed by authorized personnel, and parameters set during the initial
        program load are in accordance with established procedures.

Service Continuity

A draft disaster recovery/business continuity plan for ESA does exist. A complete inventory listing of items such
as computer hardware, software, and telecommunications needed for operations is not included in the disaster
recovery/business continuity plan.

The subservicer level report, SunGard’s SAS 70, sufficiently specifies that the following service continuity
controls exist at SunGard:
•       Backup files are created on a prescribed basis and rotated off-site often enough to avoid disruption if
        current files are lost or damaged;
•       Problems and delays encountered, the reason, and the elapsed time for resolution are recorded and
        analyzed to identify recurring patterns or trends;
•       Changes of hardware equipment and related software are scheduled to minimize the impact on operations
        and users;
•       Advance notification on hardware changes is given to users so that service is not unexpectedly
        interrupted;
•       The contingency plan is periodically reassessed and, if appropriate, revised to reflect changes in
        hardware, software, and personnel;
•       The current contingency plan has been tested under conditions that simulate a disaster; and
•       Test results were documented and a report was developed and provided to senior management.




                                                       67
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS

Transaction processing controls for compensation and medical benefit payments were tested in the following
areas:

       Case Creation
       Initial Eligibility
       File Maintenance
       Continuing Eligibility (Medical evidence and earnings information)
       Accuracy of Compensation Payments
       Schedule Awards
       Death Benefits
       Medical Bill Payment Processing
       Third Party Settlements
       Accounts Receivable

Control Objective 1: Case Creation - Control policies and procedures provide reasonable assurance that case
files were initially set up properly and information related to the claimant was input into the computer systems
correctly.

Description of Policies and Procedures:

The FECA Procedure Manual 2-401(3) and (4) contains the requirements for proper set up of the case file and
input into the appropriate computer systems.

The manual assigns the duties of keeping the case management file data accurate and up-to-date to the CE. The
case management file is set up by a Case Create Clerk and from this set up, a Form CA-800 is generated. Form
CA-800 is a case summary sheet. Accurate data in the CMF is essential to ensure that the information used to
set up the ACPS is correct. Once the ACPS is set up for each claimant, all vital data must be updated in both
the CMF and ACPS. This data includes such items as the claimant's name, address, date of birth, social security
number and chargeback code. The CE verifies the accuracy of the information entered by the Case Create Clerk
by comparing Form CA-1, CA-2 or CA-5 completed by the claimant to Form CA-800 that was generated by
the system.

The employing agency is charged with the responsibility of providing the chargeback code on the CA-1, CA-2,
or CA-5. If the employing agency does not designate a chargeback code, the case creation clerk determines
which chargeback code should be applied. Once the case file is created, a postcard is sent to the employing
agency to confirm the chargeback code.

Tests of Operating Effectiveness:

For a non-statistical sample of 75 case creation items, we compared case originating forms, such as Forms CA-
1, CA-2 and CA-5, to the information contained in the CMF and ACPS to ensure that the case origination

                                                      68
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS

process resulted in the proper setup of the case files (to include agency chargeback codes) and related computer
systems with current and accurate information.

Results of Tests:

No exceptions were noted.

Control Objective 2: Initial Eligibility - Control policies and procedures provide reasonable assurance that
each participant met the requirements of 1) time; 2) civil employee; 3) fact of injury; 4) performance of duty; and
5) causal relationship prior to acceptance as an eligible participant.

Description of Policies and Procedures:

An injured worker must satisfy five basic criteria to be eligible for compensation benefits. These
criteria are: 1) time; 2) civil employee; 3) fact of injury; 4) performance of duty; and 5) causal relationship.

1) Time - The FECA Procedure Manual 2-801(3) contains the requirements for the filing of notice of injury or
occupational disease. A timely notice of injury must be filed for a claimant to be eligible for compensation
payments. The time period filing requirements are specified in 5 U.S.C. 8119. For injuries on or after
September 30, 1974, written notice of injury must be filed within 30 days after the occurrence of the injury. For
injuries occurring between December 7, 1940 and September 6, 1974, written notice of the injury should be
given within 48 hours. The FECA Procedure Manual 2-801(3) also contains the requirements for filing a
compensation claim. A timely compensation claim must be filed for a claimant to be eligible for compensation
payments. The time period filing requirements are specified in 5 U.S.C. 8122. For injuries on or after
September 30, 1974, compensation claims must be filed within 3 years after the occurrence of the injury. For
injuries occurring between December 7, 1940 and September 6, 1974, compensation claims must be filed within
1 year. A few exceptions to these requirements are allowed.

2) Civil Employee - The FECA Procedure Manual 2-802(2) and (4) contain the requirements for determining
whether an individual meets the second of the five requirements for benefits, being a civil employee. The
definition of a civil employee is in 5 U.S.C. 8101(1). Basically, status as a civil employee is met when: a) the
service performed for the reporting office by the individual was of a character usually performed by an employee
as distinguished from an independent contractor; and b) that a contract of employment was entered into prior to
the injury.

3) Fact of Injury - The FECA Procedure Manual 2-803(3)(a) contains the requirements for the "fact of injury."
The fact of injury consists of two components which must be considered in conjunction with each other. First
is whether the employee actually experienced the accident, event or other employment factor which is alleged
to have occurred; and, second is whether such accident, untoward event or employment factor caused a personal
injury.




                                                        69
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS

The FECA Procedure Manual 2-803(5) contains the requirements for the evidence necessary to establish the
occurrence of an unwitnessed accident. In establishing the fact of injury for an unwitnessed accident, OWCP
should consider the surrounding circumstances. The CE must be able to visualize the accident and relate the
effects of the accident to the injuries sustained by the injured worker, especially where the claimant delayed
seeking medical evidence.

4) Performance of Duty - The FECA Procedure Manual 2-804 contains the requirements for the performance
of duty criterion. The performance of duty criterion is considered after the questions of "time," "civil employee,"
and "fact of injury" have been established. Even though an employee may have been at a fixed place of
employment at the time of injury, the injury may not have occurred in the performance of duty. The employee
is generally not covered for travel to and from work. There are five exceptions to this rule. Statutory exclusions
exist under which claims for compensation should be denied due to the willful misconduct of the employee. These
claims are denied even though the injured worker has met the fact of injury and performance of duty
requirements.

5) Causal Relationship - The FECA Procedure Manual 2-805(2) contains the requirements for obtaining medical
evidence necessary to establish a causal relationship between the injury and employment factors. An injury or
disease may be related to employment factors in any of four ways: a) Direct Causation; b) Aggravation; c)
Acceleration; or d) Precipitation.

The FECA Procedure Manual 2-807(17)(d)(2) contains the requirements for the 3-day waiting period which
is required by 5 U.S.C. 8117. An employee is not entitled to compensation for the first 3 days of temporary
disability, except when: a) the disability exceeds 14 days; b) the disability is followed by permanent disability;
or c) claimant is undergoing medical services or vocational rehabilitation during the 3-day period.

The CEs are required to evaluate the injury reports and supporting medical evidence submitted by claimants. The
injury reports and medical evidence must support that the claimant has met the burden of proof with regards to
the five criteria to establish initial eligibility. If the claimant has not submitted documentation which fully supports
the eligibility of the claimant, it is the claims examiner's responsibility to request such further information as the
CE deems necessary. Once a CE concludes that a claimant is either eligible or not eligible for benefits under the
FECA program, the CE notates the decision on the Form CA-800 in the case file and updates the eligibility code
in the CMF system. Claimants are notified of the CE's decision with regards to eligibility. If the claimant
disagrees with the CE's decision concerning eligibility, the claimant may request a hearing for resolution.

Tests of Operating Effectiveness:

For a non-statistical sample of 75 initial eligibility transactions, we reviewed the case file to determine whether
the notice of injury was filed timely, whether the claimant was a civil employee, whether sufficient evidence was
provided to prove the injury occurred as reported, whether sufficient evidence was provided to prove the
employee was in performance of their duties at the time of injury, whether sufficient evidence was provided to
prove the injury was causally related to employment factors, and whether the CE accepted the condition and
indicated approval of the accepted condition in the case file.

                                                          70
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS

For a non-statistical sample of 75 initial eligibility transactions, we reviewed the case files to ensure that an
employee was not paid for the first 3 days of disability unless one of the three valid exceptions applied.

Each time a technical medical issue arose regarding the initial eligibility of a claimant, we requested that the DMA
at the respective District office assist us in understanding the medical situation. We considered the following to
evaluate the professional qualifications of the DMA:

<       Professional certification, license or other recognition of the competence of the DMA.
<       Reputation and standing of the DMA in view of peers and others familiar with the DMA's capability of
        performance.
<       Experience of the DMA in the type of work stated.
<       Relationship of the DMA to the patient evaluated.

We obtained an understanding of the nature of the work performed by the DMA covering the objectives and
scope of the work; appropriateness of using the DMA's work for the intended purpose; and the form and content
of the DMA's answers that would enable us to report as required by the agreed-upon procedures.

At such time as the DMA's assistance could not be utilized due either to the DMA's prior involvement with the
case or need to seek technical assistance in a medical specialty other than the specialty of the DMA, we utilized
an independent medical physician to evaluate the medical reports contained in the case files. Medical rationale
which had been requested from a DMA was contained in the cases we reviewed. The medical rationale was
clear and concise and as such we did not consult directly with the DMAs at any district or any independent
physicians during our testwork.

Results of Tests:

No exceptions were noted.

Control Objective 3: File Maintenance - Control policies and procedures provide reasonable assurance that
claimant's address and social security number were correct in the ACPS and the chargeback code was correct
in the CMF.

Description of Policies and Procedures:

The FECA Procedure Manual 5-308(5) contains the requirements for updating the ACPS when corrections are
necessary to the claimant's address, social security number and chargeback code. When a report of injury is first
received, a record is created in the CMF. When a request is made for compensation for lost wages, a schedule
award or for death benefits, a complete case record is then created in the ACPS. The information transferred
to the ACPS for the address, social security number and chargeback code is the information in the CMF at the
time the record is created. If any of the information changes, both the ACPS and the CMF must be updated with
the new information.



                                                        71
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS

Tests of Operating Effectiveness:

For a total of 309 cases, from a sample of 234 statistically selected transactions and 75 non-statistically selected
transactions, we reviewed documentation in the case files to ensure that the social security number, date of birth
and the address were accurate in the ACPS and CMF.

For a total of 309 cases, from a sample of 234 statistically selected and 75 non-statistically selected cases, we
reviewed documentation in the case files to ensure that the chargeback code was accurate in the CMF.

Results of Tests:

In 2 of 309 items sampled, the chargeback code was incorrect; the correct Federal agency was charged,
however, the proper department within the two agencies were not. In 2 of 309 items sampled, the claimants dates
of birth were incorrect in the CMF.

No other exceptions were noted.

Control Objective 4: Continuing Eligibility (Medical Evidence) - Control policies and procedures provide
reasonable assurance that claimants submitted medical evidence to support continuing eligibility for compensation
and medical benefits.

Description of Policies and Procedures:

The FECA Procedure Manual 2-812(6) contains the requirements for the periodic review of medical evidence
to verify continuing disability. The frequency of the medical review required depends on the type of
compensation the claimant is receiving. Some claimants are required to submit medical evidence annually and
others every 2 or 3 years.

Tests of Operating Effectiveness:

For a total of 217 cases, from a sample of 142 statistically selected transactions and 75 non-statistically selected
transactions, we reviewed medical evidence in case files to ensure that the current medical evidence supported
the disability status for the compensation being received.

Results of Tests:

In 12 of 217 items sampled, current medical evidence was not located within the case file. The cases with
exceptions involved claimants on the periodic rolls, usually older individuals, who had been receiving benefits for
an extended period of time or critically injured individuals with little prognosis for future gainful employment. The
verification of current disability based on current medical reports is required by DFEC policies and procedures.
However, the absence of this documentation does not, in these cases, appear to have resulted in erroneous



                                                        72
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS

payments to claimants since information in the case file indicated the claimants appeared to have significant
disabilities which would not have corrected within the time lapsed during the most recent medical report.

An additional judgmental sample of 75 items were selected from a population of 2,916 items, representing
compensation payments of $54,149,540, for which compensation payments were made in the ACPS, the case
status was “PR” or “PV”, and for which no medical payments were made from the BPS for the corresponding
case, in the past two fiscal years. For 29 of the 75 items or 39 percent sampled, current medical evidence was
not located within the case file.

No other exceptions were noted.




                                                     73
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS

Control Objective 5: Continuing Eligibility (Earnings Information) - Control policies and procedures
provide reasonable assurance that claimants submitted earnings information and authorization to obtain earnings
information from Social Security to support continuing eligibility for compensation and medical benefits.

Description of Policies and Procedures:

OWCP mails each claimant a Form CA-1032 each year. The Form CA-1032 asks the claimants to verify the
status of their dependents and report any and all earnings by the claimants. The information reported by the
claimant on Form CA-1032 is to be reviewed by a CE and the compensation rate or amount adjusted
accordingly.

The FECA Procedure Manual 2-812(6) contains the requirements for the frequency with which claimants must
complete Form CA-1032. The FECA Procedure Manual 2-812(10) contains the requirements for changing the
ACPS system when benefit changes are indicated by the claimant on the Form CA-1032. The ACPS system
must be changed to reflect the information provided by the claimant to ensure that benefits are being paid at the
proper compensation rate and amount.

The FECA Procedure Manual 2-812(9) and (10) contain the requirements for obtaining a claimant's earnings
report from the SSA. Earnings are requested from the SSA on Form CA-1036 to determine whether an
adjustment is needed to a claimant's compensation rates. A claimant's compensation rate can be adjusted based
on the information supplied by the SSA in response to Form CA-1036. The ACPS system must be changed
to reflect the information updated by the SSA to ensure that benefits are being paid at the proper compensation
rate.

Tests of Operating Effectiveness:

A statistical sample of 203 claimants were tested for continuing eligibility controls, however, some specific tests
did not apply to all claimants due to the length of time of the claimant's injury, the date of the claim for benefits,
or the claimant's case status. Therefore, the number of tests indicated below is the number of items to which tests
were actually applied.

For a statistical sample of 141 continuing eligibility claimants, we reviewed the case file to determine whether a
CA-1032 had been requested.

For a statistical sample of 104 continuing eligibility claimants, we reviewed the case file to determine whether a
CA-1036 and CA-936 had been released to the claimant.

For a statistical sample of 86 continuing eligibility claimants, we reviewed the case file to determine whether the
Senior Claims Examiner (SCE) had requested claims information from SSA.

For a statistical sample of 6 continuing eligibility claimants, we reviewed the case file to determine whether the
case was referred to appropriate official if the claimant refused to release earnings information.

                                                         74
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS

Results of Tests:

Our procedures revealed the following specific results:

In 8 of 141 items sampled, CA-1032s had not been obtained from the claimants to verify earnings and
dependent information within the last year. In 4 of 6 items sampled, a second request for a CA-1032 had been
issued to claimants and not returned; however, DFEC did not proceed to suspend benefits. In 9 of 104 items
sampled, a release for authorization to obtain earnings information from SSA was not sent to the claimants. In
1 of 86 items sampled, the request for the earnings information was not sent to SSA by the SCE to actually obtain
the earnings information once the authorization had been received from the claimant. These cases involved older
individuals who had been receiving benefits for an extended period of time. The verification of current eligibility
based on earnings information is required by DFEC policies and procedures. However, the absence of this
documentation does not, in these cases, appear to have resulted in erroneous payments to claimants since
information in the case file indicates neither earning potential nor earnings on previous reports received from SSA.
In 2 of 45 cases, information was reported by the claimants on either the CA-1032 or by SSA and the claimants
compensations were not updated to reflect the information provided which resulted in a net overpayment to the
claimants of $3,159.

No other exceptions were noted.

Control Objective 6: Accuracy of Compensation Payments - Control policies and procedures provide
reasonable assurance that components of compensation payments including the correct compensation percentage,
pay rate, number of hours paid, verification of leave without pay status, absence of dual compensation, proper
deduction of Health Benefit Insurance (HBI) and Optional Life Insurance (OLI), and proper reimbursement of
burial bills.

Description of Policies and Procedures:

The FECA Procedure Manual 2-900 contains the requirements for the computation of compensation where the
injury occurred after September 12, 1960. The Branch of Claims Services is responsible for the computation
of compensation payments. The CE is responsible for determining the several factors used in computing
compensation.

The FECA Procedure Manual 2-901 contains the requirements to periodically adjust compensation payments
to reflect the increase in the cost of living. CPI adjustments are automatically calculated by the ACPS.

Tests of Operating Effectiveness:

For a total of 340 cases, from a statistical sample of 265 cases and a non-statistical sample of 75 cases, we
reviewed documentation in the case files to ensure that the components comprising compensation benefits were
determined correctly.



                                                        75
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS

For a statistical sample of 49 transactions, we reviewed those transactions whereby a single payment was in
excess of $50,000 to ensure the payment was authorized by a senior official at a GS-13 or higher.

For a non-statistical sample of 132 cases, we reviewed the appropriateness of the receipt of compensation for
more than one injury for the same period of time (multiple claims cases). This concurrent payment of benefits is
allowable up to certain amounts and in certain instances.

For a non-statistical sample of 29 transactions, we reviewed the appropriateness of overriding the ACPS
calculated compensation amount with a different gross compensation amount (gross override cases). A manual
override is required in instances such as when a claimant's compensation must be paid to several individuals.

We reviewed the "compensation calculation program" data that was updated in the mainframe computer system
from June 1, 1999 through May 31, 2000, to ensure that:

<      The mainframe's "compensation calculation program" was correctly using the information entered into the
       ACPS by the CEs and accurately calculating compensation benefit payments to the claimants.

<      The mainframe's "compensation calculation program" was correctly updated with the current CPI data
       and accurately calculated the CPI increase to the claimant's compensation benefit payments.

Results of Tests:

Our procedures revealed the following specific results:

In 17 of 340 items sampled, the claimants pay rates were calculated incorrectly and the claimants were underpaid
a net amount of $12,361.

In 4 of 340 items sampled, the claimants compensation percentages were determined incorrectly and the
claimants were underpaid a net amount of $18,898.

In 1 of 340 items sampled, the claimant was paid TTD when only entitled to an LWEC and the claimant was
overpaid a net amount of $7,145.

In 2 of 340 items sampled, the days for which the claimants were to be compensated were determined incorrectly
and the claimants were overpaid a net amount of $211.

In 1 of 340 items sampled, the claimant’s LWEC was not updated to reflect the current salary being earned and
the claimant was overpaid a net amount of $1,814.

In 1 of 340 items sampled, a third party credit was not absorbed prior to payment of compensation to the
claimant and the claimant was overpaid a net amount of $273,317.



                                                      76
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS

In 3 of 340 items sampled, the claimant’s compensation payments were not properly stopped or adjusted for
payments made subsequent to the claimants deaths which were or were not recouped and the claimants or
beneficiaries were overpaid a net amount of $20,816.

In 3 of 340 items sampled, the correct withholdings for HBI or OLI were not made from the claimants
compensation payments and the claimants were overpaid $994.

In 1 of 49 items sampled which exceeded $50,000 in a single payment, authorization by a senior official at a GS-
13 or higher was not obtained prior to payment.

We performed additional non-statistical test work due to the level or errors noted. Additional non-statistical test
work included a review of multiple claim cases and gross override cases.

In 2 of 132 multiple claims cases tested, the claimants were paid unallowable overlapping compensation for a
net overpayment amount of $1,650.

In 1 of 132 multiple claims cases tested, the claimant's compensation percentage was determined incorrectly and
the claimant was overpaid a net amount of $540.

In 2 of 132 multiple claims cases tested, the incorrect effective pay rate dates were used and the claimants were
underpaid a net amount of $3,708.

No other exceptions were noted.

Control Objective 7: Schedule Awards - Control policies and procedures provide reasonable assurance that
claimants had reached maximum medical improvement prior to receipt of a schedule award, medical evidence
was obtained, and medical evidence stated the percentage of impairment.

Description of Policies and Procedures:

The FECA Procedure Manual 2-808(6) contains the requirements for supporting a schedule award. The file
must contain competent medical evidence which: 1) shows that the impairment has reached a permanent and
fixed state and indicates the date on which this occurred; 2) describes the impairment in sufficient detail for the
CE to visualize the character and degree of disability; and 3) gives a percentage evaluation of the impairment.
DMAs calculate the percentage of impairment for the schedule award.

Tests of Operating Effectiveness:

From the statistical sample of 265 compensation items, 41 items were for schedule awards, we reviewed
documentation in the case files to ensure that claimants receiving compensation for schedule awards had medical
evidence in the case files that supported their impairment or disability.



                                                        77
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS

Results of Tests:

Our procedures revealed the following specific results:

In 1 of 41 items sampled, the amount paid to the claimant for the schedule award was incorrect for a net
overpayment of $2,091. The error resulted from using a pay rate which exceeded the maximum pay rate
allowed.

No other exceptions were noted.

Control Objective 8: Death Benefits - Control policies and procedures provide reasonable assurance that
proper notification of death was made; if the DMA requested an autopsy, if needed; if a death certificate was
obtained; if burial bills were obtained; and if dependent information for death benefits was verified.

Description of Policies and Procedures:

The FECA Procedure Manual 2-700(5) contains the requirements for proper and supporting documentation for
the establishment of death claims and rights of the beneficiary. Some of the documents that claimants must submit
are: 1) death certificates; 2) names and addresses of next of kin; 3) marriage certificates (civil certificates); 4)
birth certificates for each child; 5) divorce, dissolution, or death certificates for prior marriages; and 6) itemized
burial bills, receipted, if paid.

Tests of Operating Effectiveness:

From the statistical sample of 265 compensation items, 37 items were for death benefits, we reviewed
documentation in the case files to ensure that the beneficiaries receiving compensation for death benefits had
documentation in the case files that established their right as the beneficiaries.

Results of Tests:

In 6 of 37 items sampled, a current CA-12 had not been obtained from the beneficiaries to verify earnings and
dependent information within the last year. These cases typically involve older individuals who have been
receiving benefits for an extended period of time. The verification of current eligibility based on marital and
dependent status is required by DFEC policies and procedures. However, the absence of this documentation
does not, in these cases, appear to have resulted in erroneous payments to the beneficiaries since there is no
information in the case file to indicate changes in status.

No exceptions were noted.




                                                         78
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS

Control Objective 9: Medical Bill Payment Processing - Control policies and procedures provide
reasonable assurance that medical bill payments were properly authorized, approved, input, and reviewed, as
required.

Description of Policies and Procedures:

The FECA Procedure Manual Part 5 provides detailed instructions for use of the BPS:

<      Section 200 provides an overview of the system, describes the flow of bills through the office, outlines
       authorities and responsibilities, describes sources of information to be used in bill adjudication, and
       outlines procedures for some functions which support the BPS.

<      Section 201 describes keying instructions for the various BPS programs that are available to general
       users, such as CEs, fiscal personnel, keyers and contact representatives.

<      Section 202 describes the different BPS jobs which must be run and how to run them. These activities
       are generally carried out by the Systems Manager or operator.

<      Section 203 describes the coding schemes used by the BPS.

<      Section 204 describes the general rules which underlie bill adjudication.

<      Section 205 describes how suspended bills should be resolved.

<      Section 206 describes how informal appeals of Explanation of Benefits denial letters and formal appeals
       of fee schedule determinations should be processed.

<      Section 207 describes the various BPS reports available, their uses, and how to run them.

<      Section 208 describes other activities related to the BPS which are not addressed elsewhere, such as
       tracers, audits, controls and supervisory/management review.

Tests of Operating Effectiveness:

For a statistical sample of 217 transactions, we reviewed medical bills paid to ensure that bills were correctly
entered into the BPS; bills contained all information for proper adjudication; amounts were not paid in excess of
district established limits without proper approval by authorized personnel; discounts were taken, if offered; and
hospital bills were for services which were considered proper charges against the Special Benefit Fund.




                                                       79
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS

For a statistical sample of 150 transactions, we reviewed case files to ensure that a medical report was submitted
for the services provided, surgery or equipment was approved prior to payment of a medical bill, when required,
and that the medical services rendered related to the accepted condition.

For a statistical sample of 2 transactions, we reviewed bills which were subject to the Prompt Payment Act to
ensure the bills were paid within 30 days or interest was paid if the bill was paid within 45 days.

Each time a technical medical issue arose, we requested the DMA at the respective District office assist us in
understanding the medical situation. We also evaluated the professional qualifications and gained an
understanding the nature of the work performed by the DMA.

We reviewed the guidelines established by the Health Care Financing Administration and the American Medical
Association and the medical fee schedule data that was updated in the mainframe computer system from June
1, 1999 through May 31, 2000, to ensure that:

<       The mainframe's "medical fee schedule calculation program" was correctly updated with the current fee
        schedule data and accurately calculating the amounts due to medical providers.

Results of Tests:

Our procedures revealed the following specific results:

In 5 of 217 medical bills tested, procedure codes, procedure code modifiers and service zip codes listed on bills
were either keyed incorrectly into the BPS or not keyed at all resulting on overpayments totaling $3,317. One
additional medical bill contained keying errors which did not result in an incorrect payment.

In 2 of 217 medical bills tested, inpatient hospital bills were paid for more than was billed due to the use of the
DRG payment system, resulting in a net overpayment of $15,639.

In 1 of 217 medical bills tested, convenience items relating to a hospital stay were incorrectly paid in the amount
of $23.

In 1 of 2 medical bills tested, the bill was subject to the requirement of the Prompt Payment Act, the bill was not
paid timely and interest was not paid as required under the Act.

In 1 of 148 cases tested, medical reports were not contained in the case file for the medical services which were
performed. In 1 of 148 cases tested, the DMA did not approve surgery prior to payment.

Additional test work was performed to review potential duplicate payments as a result of the above errors. The
potential duplicate payment test work indicated that if all items identified as potential duplicate payments were

                                                        80
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS

in fact duplicate payments, the errors resulting could reach approximately $500,000. No further test work was
considered necessary.

No other exceptions were noted.

Control Objective 10: Third Party Settlements - Control policies and procedures provide reasonable
assurance that third party settlements are identified, tracked, and collected.

Description of Policies and Procedures:

The FECA Procedure Manual 2-1100 outlines the procedures for processing third party cases:

<      Sections (2) and (3) define authorities and responsibilities involved with third party cases.

<      Section (4) describes the letters, forms and status codes used to process and track the progress of third
       party cases.

<      Section (5) defines a minor injury.

<      Section (7) provides instructions for third party case development by key personnel, such as CEs and
       DCE's.

<      Section (8) provides instructions to close out third party cases that are not economical to pursue or that
       would not be successful with further efforts.

<      Section (9) lists certain third party cases that are not to be closed by the DCE and should be sent to the
       appropriate SOL.

<      Section (10) provides instructions for handling settlement cases where the injury is "minor" and the
       claimant is negotiating or has made a settlement without the benefit of an attorney.

<      Section (11) provides instructions for the referral of third party cases to the SOL.

<      Section (13) provides instructions for when a settlement has been made or is imminent in third party cases
       referred to the SOL.

Tests of Operating Effectiveness:

For a non-statistical sample of 100 transactions, we reviewed the documentation in the case files to ensure that:


                                                       81
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS

<       The Letter CA-1045 which requests information from the claimant regarding the action taken against a
        third party by the claimant, including the hiring of an attorney, was released to the claimant, when
        necessary, and the proper follow-up actions were conducted when the claimant did not reply within 30
        days.

<       Third party cases were referred to a DCE at the proper time.

<       The appropriate forms were released to the attorneys of claimants involved in a third party case.

<       The Form CA-1123 which summarizes the actions taken on a third party case including resolution, was
        used properly to close third party cases which are considered "minor."

<       Third party cases were referred to the SOL, when required.

<       The appropriate actions were taken to track, monitor and resolve third party cases through the SOL.

<       When necessary, claimant's compensation and medical benefits were appropriately suspended or
        adjusted.

<       When completed Form CA-162s (Statement of Recovery) from the SOL were received (or recovery
        statements from a claimant), the Summary of Disbursements, Form CA-164s, were properly prepared
        and forwarded to the fiscal section for completion.

<       The fiscal section properly established account receivables and maintained accounting records when third
        party surpluses were created.

<       Claimants were notified when the third party settlement was in excess of the prior compensation
        suspended via a Letter CA-1044 and claimants were notified when the third party settlement was not in
        excess of the prior compensation suspended via a Letter CA-1120.

Results of Tests:

In 18 of 100 third party cases, the case status codes were incorrectly reported in the CMF. For 10 cases, the
case files had a status code which indicated a third party potential when the third party aspect of the case file had
been closed. District offices would have less cases to track if the third party status code was correct. For six
cases, the case files had a status code which indicated an incorrect status of a third party credit. District offices
could erroneously make or deny payments to claimants if unabsorbed third party credits exist or are improperly
indicated and the correct compensation payments are not made.




                                                         82
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS

In 3 of 100 third party cases, CA-1045s were not issued to the claimants or, if no response was received from
the claimants to the first request, second request CA-1045s were not timely issued to the claimants.

In 8 of 100 third party cases, CA-1110s were not issued to the claimants or other follow-up actions were not
performed to determine the status of the third party cases.

In 2 of 100 third party cases CA-161s were not released to the claimant’s attorney when disbursements were
made.

In 3 of 100 third party cases, CA-1120s were not issued to the claimant, the claimant’s attorneys or the
claimant’s employing agencies to convey the closure of the third party aspect of a case to the claimants or the
claimant’s attorneys when no credit was created.

In 1 of 100 third party cases, a third party credit was reported by the claimant and a partial payment made to
FECA; however, the remaining balance of $500 was not pursued or followed up on by the District office.

No other exceptions were noted.




                                                      83
